<html>
<title> - OVERSIGHT OF THE 2000 CENSUS: COMMUNITY BASED APPROACHES FOR A BETTER ENUMERATION</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
 OVERSIGHT OF THE 2000 CENSUS: COMMUNITY BASED APPROACHES FOR A BETTER 
                              ENUMERATION

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 29, 1999

                               __________

                           Serial No. 106-21

                               __________

       Printed for the use of the Committee on Government Reform


     Available via the World Wide Web: http://www.house.gov/reform

                                 ______



                      U.S. GOVERNMENT PRINTING OFFICE
57-800 CC                     WASHINGTON : 1999




                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                GARY A. CONDIT, California
THOMAS M. DAVIS, Virginia            PATSY T. MINK, Hawaii
DAVID M. McINTOSH, Indiana           CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELEANOR HOLMES NORTON, Washington, 
JOE SCARBOROUGH, Florida                 DC
STEVEN C. LaTOURETTE, Ohio           CHAKA FATTAH, Pennsylvania
MARSHALL ``MARK'' SANFORD, South     ELIJAH E. CUMMINGS, Maryland
    Carolina                         DENNIS J. KUCINICH, Ohio
BOB BARR, Georgia                    ROD R. BLAGOJEVICH, Illinois
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
ASA HUTCHINSON, Arkansas             JOHN F. TIERNEY, Massachusetts
LEE TERRY, Nebraska                  JIM TURNER, Texas
JUDY BIGGERT, Illinois               THOMAS H. ALLEN, Maine
GREG WALDEN, Oregon                  HAROLD E. FORD, Jr., Tennessee
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
------ ------                            (Independent)
------ ------


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 29, 1999.................................     1
Statement of:
    Bourey, James M., executive director, Maricopa Association of 
      Governments................................................   124
    Celley, Scott, executive assistant to Governor Jane Hull.....    91
    Gaddy, Levonne, founding president of Multiethnics of 
      Southern Arizona in Celebration [MOSAIC]...................   131
    Jackson, Jack C., Jr., director of governmental affairs, 
      National Congress of American Indians......................   103
    Lewis, John, executive director, Intertribal Council of 
      Arizona....................................................    93
    Lewis, Rodney B., general counsel, Gila River Indian 
      Community..................................................    72
    Lumm, Esther Duran, president of the Arizona Hispanic 
      Community Forum............................................   135
    Makil, Ivan, president of the Salt River Pima-Maricopa Indian 
      Community..................................................    53
    McKenzie, Dr. Taylor, vice-president of the Navajo Nation, 
      Arizona....................................................    42
    Taylor, Wayne, chairman of the Hopi Tribe....................    63
    Thomas, Mary, Governor, Gila River Indian Community..........    73
Letters, statements, etc., submitted for the record by:
    Bourey, James M., executive director, Maricopa Association of 
      Governments, prepared statement of.........................   127
    Gaddy, Levonne, founding president of Multiethnics of 
      Southern Arizona in Celebration [MOSAIC], prepared 
      statement of...............................................   133
    Hayworth, Hon. J.D., a Representative in Congress from the 
      State of Arizona:
        Prepared statement of....................................    37
        Various articles.........................................    28
    Jackson, Jack C., Jr., director of governmental affairs, 
      National Congress of American Indians, prepared statement 
      of.........................................................   106
    Lewis, John, executive director, Intertribal Council of 
      Arizona, prepared statement of.............................    96
    Lewis, Rodney B., general counsel, Gila River Indian 
      Community, prepared statement of...........................    75
    Lumm, Esther Duran, president of the Arizona Hispanic 
      Community Forum, prepared statement of.....................   137
    Makil, Ivan, president of the Salt River Pima-Maricopa Indian 
      Community, prepared statement of...........................    55
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York, prepared statement of...............    16
    McKenzie, Dr. Taylor, vice-president of the Navajo Nation, 
      Arizona, prepared statement of.............................    44
    Miller, Hon. Dan, a Representative in Congress from the State 
      of Florida, prepared statement of..........................     4
    Taylor, Wayne, chairman of the Hopi Tribe, prepared statement 
      of.........................................................    65


 OVERSIGHT OF THE 2000 CENSUS: COMMUNITY BASED APPROACHES FOR A BETTER 
                              ENUMERATION

                              ----------                              


                        FRIDAY, JANUARY 29, 1999

                          House of Representatives,
                            Committee on Government Reform,
                                                       Phoenix, AZ.
    The committee met, pursuant to notice, at 2 p.m., in the 
Phoenix City Council Chambers, 200 West Jefferson Street, 
Phoenix, AZ, Hon. Dan Miller (chairman of the Subcommittee on 
the Census) presiding.
    Present: Representatives Miller, Shadegg, and Maloney.
    Also present: Representative Hayworth.
    Staff present: Chip Walker, communications director; Lara 
Chamberlain and Kelly Duquin, professional staff members.
    Mr. Miller. I'll call the meeting to order and welcome 
everybody to the meeting of the Subcommittee on the Census of 
the Government Reform Committee of the U.S. Congress. Welcome 
to all of you here.
    I'm delighted to have the ranking member, Carolyn Maloney, 
from New York with us.
    We're also pleased to have--they're not members of the 
committee; they're members of the Ways and Means Committee--
Congressman Hayworth here with us today, and it was his office 
that made it possible to set up this meeting, especially to 
focus on the census issues concerning the American Indian 
population.
    So we thank you very much. Your staff was very helpful. We 
appreciate that. It takes a lot of work to have a field hearing 
when you're in Washington to orchestrate and organize it here, 
and your office has been very helpful.
    We will have some opening statements by the three of us.
    It's possible Congressman Shadegg will be joining us. He 
was a member of this committee. He has now left this committee, 
but hopefully, he'll be joining us for part of this particular 
meeting.
    Earlier this week, the Supreme Court ruled that sampling 
cannot be used for the apportionment of the House of 
Representatives. The issue of sampling was one that the 
Congress and the administration agreed would have to be settled 
by the courts. Well, the high court has ruled, and now it's 
time to go ahead and get to the business of counting people for 
the 2000 census.
    As I see it, the choice with Congress is clear. We can 
dwell on the past, or we can work together and come up with a 
comprehensive plan to count America. My choice and the choice 
of the Speaker and the Republicans is to work together with the 
Democrats to count all people in America.
    I want to make it perfectly clear that Republicans are 
prepared to move on and develop effective strategies to count 
America. We welcome the input of the Democrats and the 
President. In fact, I fully expect the President will come 
forward with a good proposal to legally count America. I'm 
looking forward to those proposals.
    Two days ago, I outlined a plan to count America. The 
``America Counts Today'' outline is focused on increasing the 
resources, in many cases, the money, that the Census Bureau has 
of specific programs to count the hard to reach.
    I outlined four major community bases for improvements to 
the 2000 census: To correct community awareness, to increase 
the involvement of the community leaders, to reinforce 
community based enumerations, and No. 4 was to strengthen the 
Census Bureau's commitment to the community-based enumeration.
    First of all, to increase the involvement with the 
community leaders, my top priority there is to reinstate the 
post census local review. Nobody knows better than the mayors 
and the local officials, such as tribal leaders, where people 
in your community or reservation live.
    Post census local review will give you the opportunity to 
review the census numbers before the Census Bureau makes them 
final. This program was used in 1990 and added over 80,000 
households but was discontinued in the 2000 census because the 
Bureau felt it was too costly. The cost cannot be an impediment 
to a successful census. You have the right to check the 
numbers, and that can do nothing but help improve the count.
    At the same time, I propose establishing matching grant 
programs to local partnership groups and communities in the 
hardest to count areas. This will provide needed resources to 
conduct outreach efforts and to encourage participation in the 
census in the respective neighborhoods.
    Community awareness is critical and I am proposing to 
quadruple the advertising budget from $100 million to $400 
million, with a significant portion of the new money targeted 
toward the hardest to count areas of the Nation, which would 
include the American Indian reservations.
    I also want to expand the Census in the Schools program. 
This program is designed to raise awareness among our children 
about the importance of being counted. It's unfortunate to say 
there's only enough money for 10 percent of the schools. I 
propose expanding that to cover all the schools in America.
    Additionally, we can and we must triple the number of paid 
Census Bureau partnership specialists and, again, target them 
to work in the areas with the worst undercount.
    The third major initiative involves reinforcement of 
community-based enumeration. I propose that we add a minimum of 
100,000 additional census enumerators, and we target them to 
work in the hardest to count communities.
    By organizing these enumerators into a unique team and 
focusing their efforts exclusively on reaching the hardest to 
count populations, we'll have a far more accurate count in 
those areas.
    I also propose to enlist Americorp volunteers in the census 
effort. When a Republican proposes to expand the Americorp 
program, you know something is different. If we are going to 
have Americorp, I can think of no better civic service than 
helping count America, and why not use this program to reduce 
the undercount.
    Next, I want to join with Congresswoman Carrie Meek to 
provide waivers to Welfare recipients and retired military 
officers and any others that are necessary who would like to 
help count their neighborhoods but can't because of the 
bureaucratic red tap that would cause them to lose their 
benefits if they take a temporary census job.
    At a recent meeting of the Census Advisory Committee, the 
American Indian representatives lamented that a program on 
Indian reservations called TANF, or Temporary Assistance for 
Needy Families, was preventing many American Indians from 
taking temporary jobs working as census enumerators. We must 
remove these barriers for a full count in 2000.
    The fourth issue is to strengthen the Bureau's community-
based enumerations. I propose, instead, of having a second 
questionnaire mailed to households. In the 1998 dress 
rehearsals, this was shown to increase the response rate by 7 
percent. This would mean that up to 19 million people could be 
added to the census rolls before we send the enumerators into 
the field.
    When I first talked about these programs the other day, the 
ranking member, Congresswoman Maloney, was very quick to 
dismiss some of these proposals. Let me say this about the 
America Counts Initiative. For starters, the plan is legal. The 
plan that has been proposed by the Clinton administration is 
not legal.
    Some of these programs have been tried before, and some 
have never been tried before. For example, we've never had paid 
advertising. We've never had it in the past, and I'm proposing 
to increase it to $400 million.
    Is there anyone telling me today that allowing American 
Indians to work for the Census Bureau to help count their 
people without losing there benefits is a bad idea and won't 
help?
    Is there anyone who, today, would say, in the local 
government or the American Indian Reservations, they don't want 
to have a chance to look at the numbers before the final count 
to see if there were mistakes made in the census? We think 
those are things that could help. And having the schools 
involved is something that I think benefits the census.
    So we have a plan. By working together with the Democrats 
and the Republicans, having input with people that are here and 
throughout the country, we think we can do a much better job in 
completing the census.
    I presented the programs for counting America, and I had 
very positive support, especially on the issue of local census 
review after the census is completed. So we are going to 
conduct a legal census, the most accurate census in our 
history, and we look forward to the input from all the people 
here today.
    At this time, I would like to ask Congresswoman Maloney for 
an opening statement.
    [The prepared statement of Hon. Dan Miller follows:]

    [GRAPHIC] [TIFF OMITTED]65952.001
    
    [GRAPHIC] [TIFF OMITTED]65952.002
    
    [GRAPHIC] [TIFF OMITTED]65952.003
    
    [GRAPHIC] [TIFF OMITTED]65952.004
    
    [GRAPHIC] [TIFF OMITTED]65952.005
    
    [GRAPHIC] [TIFF OMITTED]65952.006
    
    [GRAPHIC] [TIFF OMITTED]65952.007
    
    [GRAPHIC] [TIFF OMITTED]65952.008
    
    [GRAPHIC] [TIFF OMITTED]65952.009
    
    Mrs. Maloney. Thank you.
    First of all, I'd like to thank my colleagues, particularly 
J.D., for hosting us here today. We spent a wonderful morning 
touring Indian reservations. And actually, I thank you, Dan, 
for bringing us here to the field.
    Any time we speak out on the census and we go to 
communities and make them more aware, we are improving our 
count locally. And I want to thank all witnesses that will be 
here.
    The State of Arizona, the city and communities of Phoenix, 
and the American Indian tribes in this area were all 
undercounted in 1990 at an unacceptably high rate. I am 
committed to changing this in the 2000 census and will listen 
with great interest to any ideas that the Indian tribes and 
other governmental officials will have today and the 
multiracial representative bloodline.
    The 1990 census was full of mistakes, and many of those 
mistakes were in the Southwest. New Mexico had an undercount of 
3.1 percent, the highest undercount for any of the 50 States. 
Arizona had an undercount of 2.4 percent, which is 50 percent 
above the national average.
    American Indians on reservations had an undercount of 12.2 
percent, the highest group in the country in the undercount. 
That means that 1 out of every 8 American Indians living on the 
reservation was missed. The census also missed 1 out of every 
20 Hispanics. The undercount of American Indians not on 
reservations was 2.5 percent.
    And when you're undercounted, your dollars--your Federal 
dollars are less coming in because our dollars are tied to 
census numbers, our Federal formulas, and the representation, 
the people elected. Districts are drawn based on census 
numbers.
    So it's very, very important, not to mention good data, 
good scientific data to plan for the future where our health 
facilities need to be or other facilities.
    The 1990 census was the most examined census in the history 
of our country. Both Congress and the Census Bureau were 
displeased with the results of the census. The total error rate 
was over 10 percent.
    Twenty-six million people were miscounted. There were 8.4 
million people missed; 4.4 million people were counted twice; 
and 13 million people were counted in the wrong place.
    To make matters worse, the people missed and the people 
counted twice are quite different. The people missed in the 
census are minorities: American Indians, Latinos and Asians, as 
well as urban and rural poor. The people counted twice in the 
census tended to be affluent suburbanites.
    I agree with the President who said in the State of the 
Union Address, ``Since every person in America counts, every 
American ought to be counted.'' That won't happen without the 
use of modern, scientific methods. That is what we learned in 
the 1990 census.
    I would like to turn, very briefly, to the unique problems 
of counting American Indians in the census. The relationship 
between American Indians and the Federal Government is a 
complicated one. Tribal government represents sovereign 
entities, and as such, have a special relationship.
    In 1992, tribes in the Northeast barred census takers from 
their reservation. It was, as they argued, their right as a 
sovereign nation, their right not to be counted.
    Another complicated relationship exists between tribal 
rolls and the census. The census is to count people based on 
their usual residence on April 1. The tribal rolls, on the 
other hand, are more concerned with identifying membership in 
the tribe than with the residents on a particular day.
    I am pleased that the Census Bureau has done a great deal 
of work and improved its procedures on Indian reservations 
since 1990. The Bureau is committed to the recruitment and 
hiring of tribal members to count members of their tribe.
    The Census Bureau is committed to working with the American 
Indian nations to make sure that every operation of the census 
is sensitive to the needs and the culture of those nations. 
This will include the cultural sensitive advertising materials 
as well as school program materials.
    It is my understanding that hiring American Indians on 
reservations for temporary census work has been hampered by 
laws governing temporary relief payments. That is unfortunate 
and unnecessary.
    I am pleased that Representative Miller has stated today 
his endorsement of a bill proposed by my good friend Terry 
Meek, a Democratic Representative from Florida. I have 
supported that bill for two Congresses now, but we have been 
unable to get the Republican majority in the House to move the 
bill.
    If the House had acted on this bill last year, we would not 
be having trouble on reservations today. So with all due 
respect, I appeal to my colleague not to just support this bill 
but to pass it in the U.S. Congress.
    I see that my time is up, and I have a great deal more to 
say, but let me just put into the record, and I ask unanimous 
consent, editorials from the Washington Post, the LA Times, and 
the New York Times.
    And these editorials really lament the Supreme Court 
decision, which was very narrowly drawn. It barred sampling for 
apportionment, the drawing--the apportionment of seats between 
the States--but allowed it for Federal funds for good data and 
for redistricting.
    Also I would like to put into the record a letter from the 
civil rights community. It is a cross section, just to mention 
a few, of the National Congress of American Indians, League of 
Women Voters, Korean Cultural Center, Jewish Committee, Asian 
Chamber of Commerce, the AFL-CIO, Chicanos, Latinos, Civil 
Rights Liberties, and many, many others who have really signed 
a letter in support of modern scientific methods.
    And I will only quote briefly from their letter one line: 
Direct counting methods alone do not have the capacity to 
improve accuracy or reduce the differential undercount of 
children, people of color, American Indians living on and off 
reservations, and the urban and rural poor.
    And I also would like to just clarify because my dear, good 
friend Representative Miller, I believe, has misquoted the 
Supreme Court. And may I quote from Sandra Day O'Connor the 
majority opinion.

    We do not mean to suggest, as Justice Stevens claimed, a 
dissent that the 1976 amendments had no purpose, rather the 
amendments served a very important purpose. It changed the 
provision that permitted the use of sampling for purposes other 
than apportionment into one that required that sampling be used 
for such purposes if feasible. And I think that statement is 
very clear.

    I do know that the chairman has been very generous to bring 
us out here to be with you. I have a great deal more to say, 
but my time is up, and we need to very strictly adhere to that, 
because we have many important speakers. Thank you.
    May these be accepted in the record?
    [The prepared statement of Hon. Carolyn B. Maloney and the 
information referred to follow:]

[GRAPHIC] [TIFF OMITTED]65952.010

[GRAPHIC] [TIFF OMITTED]65952.011

[GRAPHIC] [TIFF OMITTED]65952.012

[GRAPHIC] [TIFF OMITTED]65952.013

[GRAPHIC] [TIFF OMITTED]65952.014

[GRAPHIC] [TIFF OMITTED]65952.015

[GRAPHIC] [TIFF OMITTED]65952.016

[GRAPHIC] [TIFF OMITTED]65952.017

[GRAPHIC] [TIFF OMITTED]65952.018

[GRAPHIC] [TIFF OMITTED]65952.019

[GRAPHIC] [TIFF OMITTED]65952.020

    Mr. Miller. Without objection those will be included in the 
record. And for those that have additional materials to include 
in the record with their presentation, we will include that 
with the record.
    Thank you, Mrs. Maloney, for your statement.
    And as I said, Congressman Hayworth, who represents this 
area of Arizona, was very gracious to host us this morning and 
make it possible. He's not a member of the committee, and we 
have agreed that it's proper to have both Mr. Shadegg and Mr. 
Hayworth.
    So Mr. Hayworth, we'd like to hear from you.
    Mr. Hayworth. Chairman Miller, Ranking Member Maloney, 
Congressman Shadegg, tribal leaders, representatives, 
distinguished witnesses, and guests, thank you for the 
opportunity to participate in what I believe is a very 
important subject: The severe undercount of the Native 
Americans in the census.
    I welcome this opportunity to hear from so many leaders 
across the width and breadth of the great State of Arizona.
    And while it is not my intent to score debating points, for 
purposes of making the record more complete, Mr. Chairman, I 
would ask unanimous consent that we include in the record the 
following editorials: the Daily Oklahoma, the Orange County 
Register, the Florida Times Union of Jacksonville, the New York 
Post, and the Post and Courier of Charleston of South Carolina 
dealing with plots for a Supreme Court decision and the 
champions of our Constitution.
    As I said when it was my privilege in the 106th Congress 
to----
    Mr. Miller. Without objection, they will be accepted.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED]65952.021
    
    [GRAPHIC] [TIFF OMITTED]65952.022
    
    [GRAPHIC] [TIFF OMITTED]65952.023
    
    [GRAPHIC] [TIFF OMITTED]65952.024
    
    [GRAPHIC] [TIFF OMITTED]65952.025
    
    [GRAPHIC] [TIFF OMITTED]65952.026
    
    [GRAPHIC] [TIFF OMITTED]65952.027
    
    Mr. Hayworth. I thank the chairman for that.
    When I had the privilege to stand for the sovereignty of 
Indian tribes and I pointed out to the assembled audience and 
my fellow committee members that sovereignty is guaranteed for 
Native Americans by Article I, Section VIII of the 
Constitution, so too, ladies and gentlemen, Mr. Chairman, when 
I refer us all to Article I, Section II of this Constitution, 
which uses the following terminology.
    The actual enumeration--with reference to a census, ``The 
actual enumeration shall be made within 3 years after the first 
meeting of the Congress of the United States and within every 
subsequent term of 10 years in such manner as they shall by law 
direct.''
    Actual enumeration is the terminology used here. I will 
offer the observation that just as they champion Native 
American sovereignty, so too let us remember the exact 
terminology and mission our Congress gave us in the 
Constitution as it exits.
    As you know, Mr. Chairman, I represent eight tribes, and 
nearly 1 in 4 of my constituents is Native American. Arizona is 
second only to Oklahoma in Native population.
    The Navajo Nation, which I represent, is geographically the 
largest reservation in the United States, encompassing over 
17\1/2\ million acres and transcending four State boundaries.
    According to the 1990 census, it is also home to more than 
225,000 Indian residents, which is equivalent to 11.6 percent 
of the Native American population nationwide. The Navajo Nation 
is second only to the Cherokee tribe in terms of membership 
numbers.
    The other tribes I'm honored to represent here today, 
including the Gila River Indian Community and the Salt River 
Pima-Maricopa Indian Community, while not as large as the 
Navajo Nation, have significant populations, and it is equally 
important that they are not undercounted when we conduct the 
2000 census.
    Mr. Chairman, I am disheartened by the fact that Native 
Americans are the most severely undercounted segment of our 
society. According to the Committee on Adjustment of Postcensal 
Estimates Report, the total undercount in Indian country was 
approximately 12.22 percent in 1990.
    Think about it. Approximately 1 in 10 Native Americans, the 
first Americans, were missed in this count. We must honor our 
sacred, solemn treaty, and tribal and constitutional 
obligations to our first Americans by counting every single 
one.
    The undercount has resulted in the loss of millions of 
dollars to Indian Country. In my district, tribes depend on 
funding for a variety of programs. The amount of funds they 
receive is primarily determined by the decennial census count. 
That means that tribes are receiving less funding for Tribal 
Priority Allocations, the Indian Reservation Roads program and 
Indian education programs.
    With the Supreme Court's ruling this past Monday that 
sampling is illegal, I believe it is imperative that the Census 
Bureau begin taking active steps to reduce the undercount 
throughout Indian country.
    I think there are several ways that the Bureau can achieve 
this. First, the Census Bureau must utilize the Local Update of 
Census Addresses program created by the Census Improvement Act 
of 1994. The main purpose of the program is to maintain a 
quality master address file by creating partnerships with local 
and tribal governments to improve address lists for the 2000 
census.
    Local and tribal governments will designate liaisons to 
review the MAF for their particular jurisdiction. I believe it 
is important that the Census Bureau nurture relationships with 
Native American liaisons who are more likely to be accepted and 
trusted by tribal members than local census employees. I 
believe this program is a worthwhile investment in helping to 
reduce the undercount in Indian county.
    Second, Mr. Chairman, I believe the Census Bureau should 
aggressively pursue the Be Counted national campaign, which 
will provide a means for people to be included in the 2000 
census who may not have received a questionnaire or believe 
they were not included on one.
    The Be Counted campaign is going to place particular 
emphasis on developing ways to include population groups that 
have been historically undercounted, including Native 
Americans. Post offices, libraries, gas stations, or grocery 
stores are some of the intended locations of the Be Counted 
campaign.
    In many Native American communities, these locations serve 
as local gathering places. These outposts could serve as an 
effective base to ensure that individuals are receiving 
information on our census and would help guarantee that we are 
counting as many Native Americans as possible.
    Third, I would support efforts by the Census Bureau to 
establish complete count committees [CCCs]. A CCC would be 
composed of influential government officials, community, 
business, and religious leaders.
    A CCC would distribute materials by the Bureau. In 
addition, a CCC would help develop and create public service 
announcements. Again, I believe it's very beneficial to involve 
the local communities whenever possible.
    For instance, a CCC on a reservation could use its 
influence in native languages to produce public service 
announcements that would encourage tribal members to 
participate in the census.
    This leads to my fourth point, which is my support not only 
for public service announcements, Mr. Chairman, but for paid 
advertising. I know paid advertising includes time.
    I see that four-letter word raise its head with the red 
light here, but I would simply point out, in addition to asking 
unanimous consent to include my entire statement in the record, 
that the only way I believe the Census Bureau can reduce the 
undercount in Indian country is by conducting a local review of 
the official census before the Bureau submits the final count 
to our President.
    You talked about it in your opening statement. I find that 
encouraging. I look forward to hearing from all of our 
witnesses this afternoon, and thank the subcommittee members on 
both sides of the aisle for joining us here in Arizona.
    [The prepared statement of Hon. J.D. Hayworth follows:]

    [GRAPHIC] [TIFF OMITTED]65952.028
    
    [GRAPHIC] [TIFF OMITTED]65952.029
    
    Mr. Miller. Thank you, Congressman Hayworth.
    Unfortunately, he's on the very popular Ways and Means 
Committee, and one of the recommendations I made and 
Congresswoman Maloney has talked about also, is to create 
waivers for people that would work for the Census Bureau so 
that people in the local community could do that.
    And some of that legislation may be blown to your 
subcommittee, Mr. Hayworth, so do we have your support in that?
    Mr. Hayworth. If the chairman would yield, I think I heard 
the magic letters TANF, which deal with the Ways and Means 
jurisdiction, so given that particular collection from the 
alphabet, I think we will be crossing jurisdictions; look 
forward to working with members of the subcommittee.
    Mr. Miller. Thank you.
    I'd like to now welcome Congressman Shadegg. Congressman 
Shadegg served on our committee for the past 4 years, and we're 
sorry to see you move.
    Thank you, very much, and thank you for joining us here 
today. Congressman Shadegg.
    Mr. Shadegg. Thank you, Mr. Chairman.
    I did serve on this subcommittee and enjoyed my service on 
the committee. I will miss not being able to serve with you as 
you go forward.
    I want to welcome the ranking member to Arizona. I hope 
we're providing adequate nice weather for you and the chairman, 
and thank my colleague Mr. Hayworth for bringing this hearing 
to Arizona.
    In the interest of time, I am not going to make, at this 
time, Mr. Chairman, a formal opening statement but would like 
to put some things on the record. I would like to make a few 
brief remarks.
    I commend the chairman for his efforts in this entire area. 
I commend Mr. Hayworth for bringing the hearing here to 
Arizona.
    As a native Arizonan, I am deeply concerned about Arizona's 
representation and about Arizona getting, as it were, a fair 
share. I'm also very familiar with Native American reservations 
and with their unique problems.
    As it happens, while a member of the Arizona attorney 
general's office, I sued the U.S. Government for breach of this 
treaty to the Navajo people and it's obligation to educate 
Navajo people in a lawsuit in which the Federal Government was 
suing; we sued the Federal Government for failing to live up to 
the 1880 treaty.
    In that litigation, we tried to point out that had the 
Federal Government lived up to some of those treaty 
obligations, perhaps the State wouldn't be under so many 
obligations.
    But in that capacity, I've had a chance to get to know many 
of Arizona's Native American peoples, and the unique problems 
on the reservations. It is indeed a unique problem, and it is 
vitally important that we ensure an accurate count.
    And my goal here today, and I hope it's the goal of every 
single person in the hearing, is to ensure that we do every 
single thing possible to ensure that we have a complete and 
full account of every single American, but particularly every 
single Native American.
    It is an outrage, no less than that, that there were so 
many Native Americans undercounted in the last census. And I 
notice, Mr. Chairman, in my conversations with you during my 
service on the committee and my conversations with you in the 
past that that's your goal as well.
    I would point out that one of the things that I find 
anomalous in this entire debate over sampling is worthy of 
mentioning here today. We know the topic here today isn't 
sampling, and indeed we're going to get to what really matters 
in terms of getting a good count first.
    But in the debate that pervades this, nonetheless, of 
sampling, I think it's worth pointing out that in their plan, 
the Census Bureau has consistently said they will not sample on 
Native American reservations.
    Indeed, to double check that this week, I had a staff 
member contact the Census Congressional Affairs Office, and 
they were told, ``There will be no sampling on Indian 
reservations. We'll attempt to count 100 percent of the 
population and then followup with an ICM.'' And ICM is the 
integrated coverage measurement.
    I have always found it anomalous and, indeed, problematic 
and difficult for me to understand, since I represent a State 
which has many Native Americans and as we know, Native 
Americans were the most undercounted in the population in the 
last census, that the mechanism designed to fix the undercount, 
specifically sampling, is not to be used on reservations.
    If it's a good measure to fix the undercount, why isn't it 
being used on Native American reservations? I think that's a 
fair question.
    Nonetheless, in light of the Supreme Court ruling, I think 
our job here today--I will conclude with this--is to do 
everything we can to identify and to learn how we can maximize 
the count and get an accurate 100 percent count of those 
Americans living on Indian reservations and of all Native 
American people.
    And I thank you, Mr. Chairman, for allowing me to speak 
today.
    Mrs. Maloney. One clarification, if I could. It is true 
that they were not using sampling for non-response follow-up, 
but the Supreme Court decision knocked out non-response follow-
up. The Republicans won on that issue.
    But the ICM is used. The ICM, we're now calling it the post 
enumeration survey. That is sampling. That goes in after the 
count to correct it, and we have Census Bureau officials here 
that could speak further on it.
    But for the record, sampling is used on Indian 
reservations. It is the Census Bureau's plan to use sampling 
for the post enumeration survey or the ICM. There will be no 
sampling for non-response follow-up for anyone: Latino, urban, 
rural, Indian reservations. There will be none of that for 
anyone now because of the Supreme Court's decision.
    But for the adjustment after the count, the ICM is used, so 
sampling is projected to be used on Indian reservations.
    Mr. Miller. But since the----
    Mrs. Maloney. And the Census Bureau is here. They can speak 
for themselves.
    Mr. Shadegg. That's exactly what I said, that they will 
have followup with ICM.
    Mr. Miller. The ICM is unconstitutional. I mean, we won't 
use ICM. That is sampling. So that will not be used. My 
interpretation and the interpretation of the attorneys I've 
talked to is that sampling will not be used, not only for the 
apportionment, but also for redistricting.
    For money, it's very clear. Sampling can be used, and it 
very likely will be used. So money is a different issue. But 
when you get to apportionment/redistricting, the consensus 
turns to one issue. I think the interpretation by many 
attorneys would be that it will not be used, but it----
    Mrs. Maloney. Another point of information. If you look up 
apportionment and redistricting in the dictionary, there are 
two different definitions for it. They are two different 
things.
    The Supreme Court dealt with apportionment, only not 
redistricting, so the interpretation of the Census Bureau, of 
the President of the United States, of many like-minded 
Republicans and Democrats is that it can be used for 
redistricting. It will. It is supported by the President.
    Mr. Miller. This will be settled by judges. We've already 
had six Federal judges plus five Supreme Court Justices say 
it's illegal, so----
    Mr. Hayworth. Mr. Chairman----
    Mr. Miller. Let's move--we need to move on, if you don't 
mind. We have all this fun in Washington, but we really are 
here to listen and learn. If you use sampling, you need to have 
the best initial count we can. And we recognize that, 
especially with the American Indians, that was the largest area 
of the undercount, and we're here to listen and learn about 
ideas and suggestions.
    So what I'd like to do now is call forward the first panel. 
If you will, come forward and have a seat at the table.
    We have the Honorable Dr. Taylor McKenzie, who is the vice-
president of the Navajo Nation; the Honorable Ivan Makil, 
president of the Salt River Pima-Maricopa Indian Community; the 
Honorable Wayne Taylor, Jr., chairman of the Hopi Tribe; Mr. 
Rodney B. Lewis, general counsel for the Gila River Indian 
Community; if they'd come forward.
    I'd also ask Governor Mary Thomas if she'd come forward. 
She will respond to questions, and we appreciate her being 
here.
    We want to say thank you, very much, for your hospitality, 
Governor Thomas, today, and knowing that you just flew in from 
Washington in the middle of the wee hours of this morning and 
are joining us today, we are very much appreciative of your 
being here.
    Actually, as we do with hearings, if you all will stand, 
those of you testifying, and take the oath here. And if you all 
would, stand and raise your right hand.
    [Witnesses sworn.]
    Mr. Miller. The record will identify they all said I do.
    Thank you. Please, be seated.
    And at this time, we'll begin with Dr. McKenzie, if you'd 
like to begin.
    The goal is we're going to be finished by 5 o'clock, and so 
we use the 5-minute rule--try to live with the 5-minute rule. 
We weren't too good up here, all three of us.
    Please, try to use the 5-minute rule because we want to 
have some time for some questions, and we have two more panels 
today.
    Dr. McKenzie.

STATEMENT OF DR. TAYLOR McKENZIE, VICE-PRESIDENT OF THE NAVAJO 
                        NATION, ARIZONA

    Mr. McKenzie. Thank you, Honorable Dan Miller, Honorable 
Carolyn Maloney, Honorable J.D. Hayworth--it's good to see 
you--Honorable John Shadegg.
    I'm pleased to be here today. And the president of the 
Navajo Nation who was scheduled to be on this panel was unable 
to be here today, and he did assign me to the task of being 
here for this.
    The president and I support the U.S. Census Bureau, and the 
Navajo Nation coming together in partnership and consultation 
to ensure the most accurate count possible. To achieve this, it 
will require the cooperation of both the Navajo Nation and the 
Federal Government.
    However, to ensure an accurate count, which is useful to 
all interested parties, the census match must recognize not 
only the BIA agency boundaries, the chapter boundaries, as well 
as State and county lines; the chapter being considered as the 
smallest unit of local government, which then can be combined 
to form agency government, which then can be combined to fit 
into the State and county lines. It is possible to do an 
accurate count combining all of these designations.
    The persons recruited for collecting the census must be 
prepared for the difficulties involved. This means that the 
individuals must speak both fluent Navajo and English, and that 
they cannot rely on street address or post office boxes. They 
must encounter rugged, rural terrain to get to the households.
    Those who work on the census must do the field work to get 
the information. In view of that, adequate funding must be made 
available to recruit adequate numbers of enumerators. It is 
apparent that there are not enough people to do the job.
    The publicity of the census must be in English and Navajo, 
and must be oral as well as provided in written form. This 
publicity must clarify some possible misunderstandings, 
including possible confusion between the census number, which 
is assigned to each individual member of the Navajo Nation, and 
also those that are being counted in this count.
    The Navajo Nation is committed to assist the Federal 
Government in conducting the year 2000 census because it is 
important to have an accurate figure so that we can meet the 
serious needs of the Navajo people at the local level. It is 
important that we have an accurate count so that we may have a 
more justifiable access to resources that are so needed.
    However, this will also require a commitment of the Federal 
Government to address the unique situations based on the Navajo 
Nation.
    The Navajo Nation is prepared to cooperate and to be a 
partner in this endeavor to achieve an accurate count. It has 
provided a liaison person already in the President's office. It 
will assist in the recruitment of persons who are qualified to 
do the census, and these qualifications will be reviewed by the 
people at the local chapter level.
    The Navajo Nation is prepared to assist in the publicity of 
whatever sort may be required. The Navajo Nation is prepared to 
review the maps and advertising of the census as well. We have 
maps that have been prepared that can be utilized by the Navajo 
government, as well as by the census takers.
    There is an agreement with the Census Bureau that has been 
prepared, and because of the schedule of the Navajo Nation 
government it has not been acted upon but will be presented 
Monday. It will be approved, and if the Navajo Nation president 
is absent that day, I will be glad to sign it for him.
    On the other hand, what the Navajo Nation cannot do is the 
chapter officers who have often been recruited to conduct the 
field work, it will not be possible for them to do this 
because, as we understand the program of enumeration, it is a 
full-time job, particularly on the Navajo Nation where the 
people are scattered and both the Navajo language and the 
English language must be used. So it is a full-time job, and 
the chapter officials cannot do it part-time.
    It cannot do the census for the Federal Government. 
Consequently, there must be adequate funding for Navajo people 
who can do the job to be hired, and the job must be done 
appropriately.
    Conducting the count in the smallest unit of local 
government will come closest to counting each individual Navajo 
on the Navajo Reservation. The chapter unit must be considered 
as a base unit in which the counting needs to be done, and from 
there they can be combined, clustered, and conformed to agency.
    There are five agencies within the Navajo Nation. And these 
can be coordinated and collaborated with the State and county 
lines without any difficulty. It is extremely possible to do an 
accurate count if we put our minds to it.
    Thank you, very much.
    [The prepared statement of Mr. McKenzie follows:]

    [GRAPHIC] [TIFF OMITTED]65952.030
    
    [GRAPHIC] [TIFF OMITTED]65952.031
    
    [GRAPHIC] [TIFF OMITTED]65952.032
    
    [GRAPHIC] [TIFF OMITTED]65952.033
    
    [GRAPHIC] [TIFF OMITTED]65952.034
    
    [GRAPHIC] [TIFF OMITTED]65952.035
    
    [GRAPHIC] [TIFF OMITTED]65952.036
    
    [GRAPHIC] [TIFF OMITTED]65952.037
    
    [GRAPHIC] [TIFF OMITTED]65952.038
    
    Mr. Miller. Thank you very much.
    We will continue with the panel with Mr. Makil. Is that 
close?
    Mr. Makil. [No audible response.]
    Mr. Miller. Go ahead, Mr. Makil.

   STATEMENT OF IVAN MAKIL, PRESIDENT OF THE SALT RIVER PIMA-
                   MARICOPA INDIAN COMMUNITY

    Mr. Makil. Chairman Miller, Representatives, I appreciate 
this time today and especially welcome back to the district 
Congressman Hayworth; always enjoy time to discuss issues with 
you and Mr. Shadegg as well. I always appreciate the 
opportunity to visit with you while we're in DC. And here.
    I'll make my comments very brief because I know that most 
of this information you are familiar with. There's been, and 
there will be today, many that will restate some of the facts 
that I think we all know.
    The facts that American Indians have been undercounted, and 
until a process is developed that will provide an accurate 
count, we will continue to be undercounted, and what our major 
concern here today is, as has always been with tribes, is to 
make sure that as our governments grow and develop that we 
continue to provide opportunities to create productive 
citizens.
    And part of our ability to develop productive citizens lies 
within those opportunities that come about as a result of the 
census count. That's our primary concern, because without an 
accurate counting, then it is difficult to assess a number of 
other associated issues that come into play when you're dealing 
with numbers of people.
    While we can generalize and we can look at tribal records 
and the roles of tribal membership, that is only part of the 
story. That is only part of what the total population will be 
within an Indian community because of intermarriages, etc. So 
there are a number of problems there.
    But again, our focus still ought to be on how do we get 
accurate counts to be able to provide services and to continue 
to education our people so that our people will grow up better 
trusting the Federal Government system because that is a big 
part of the consideration here.
    When that trust is in question, then it makes it difficult 
for people to want to participate, and so, it requires, as was 
mentioned, local people from within the Indian nations 
themselves to be a part not only of the counting process but in 
the planning process, in the development of these programs.
    While we know that there have been programs developed by 
the Census Bureau that--at least in our experience--that 
involvement or participation has been minimal, and there are a 
number of other considerations that I'm sure would come out of 
more involvement by tribes in these plans.
    These true assessments--and let me go on and just say, with 
some recommendations: Obviously, adequate training with tribal 
liaisons and census takers; hiring tribal community members; 
the exemption--income exemption for temporary census takers is 
also an issue, which I know has been mentioned; the use of our 
enrollment lists; and using high-volume tribal programs. In 
every Indian community, there are the clinics, the hospitals, 
the health and human service programs where you have high 
volumes of traffic. And you can have centers for information 
with questionnaires.
    Those are the kinds of things that could be done. It takes 
just a little bit of creativity; setting up booths at tribal 
social events: fairs, rodeos, culture events, as well as tribal 
governments getting behind this effort; and as was mentioned, 
passing resolutions or Executive orders and actually committing 
to become more involved.
    Also we think that in the planning of these sessions, we 
could have brainstorming sessions with tribal leadership and 
representatives of tribes that might add some ideas to possible 
marketing campaigns that would help to get the information out 
to the general public in the area.
    Many of the reservations, not just in Arizona but 
throughout the country, have access to television and radio, so 
that they have the opportunity to have information communicated 
in their languages, as well as in our schools, getting into our 
schools and having outreach programs there.
    I see that the time has expired, and just in closing, I 
would like to make sure that my written testimony can be 
submitted for the record.
    And if that can, then I will just conclude by saying that 
while we know there have been long debates about the merits of 
sampling, the fact remains that many of our people still are 
undercounted.
    And what's important here, as I stated in my opening 
comment, is that it is critical, critical not only to Indian 
communities but how our citizens become a part of the State and 
the Federal contribution in producing productive citizens.
    Until there is a program that is developed that can produce 
an accurate count, I think that we have to use whatever means 
is available to us to try to get that accurate count.
    I believe the tribes have a keen interest in making sure 
that those counts are accurate, whether it be by sampling or 
any other form, simply because the production and the 
development of productive citizens contributes not only to 
Indian communities and to our economies and creates self-
sufficiency but that contribution goes to the county, State, 
surrounding governments, and the Federal Government as well.
    And with that, I thank you for the time and for your 
interest in this issue.
    [The prepared statement of Mr. Makil follows:]
    [GRAPHIC] [TIFF OMITTED]65952.039
    
    [GRAPHIC] [TIFF OMITTED]65952.040
    
    [GRAPHIC] [TIFF OMITTED]65952.041
    
    [GRAPHIC] [TIFF OMITTED]65952.042
    
    [GRAPHIC] [TIFF OMITTED]65952.043
    
    [GRAPHIC] [TIFF OMITTED]65952.044
    
    [GRAPHIC] [TIFF OMITTED]65952.045
    
    [GRAPHIC] [TIFF OMITTED]65952.046
    
    Mr. Miller. Thank you very much, and your statement will be 
included in the record.
    Chairman Taylor.

     STATEMENT OF WAYNE TAYLOR, CHAIRMAN OF THE HOPI TRIBE

    Mr. Taylor. Good afternoon, Honorable Dan Miller, Honorable 
Carolyn Maloney, Honorable J.D. Hayworth, Honorable John 
Shadegg, and respected tribal leaders.
    My name is Wayne Taylor, chairman of the Hopi Tribe. I 
welcome this opportunity to submit testimony to the House of 
Representatives Committee on Government Reform.
    Our issue is to ensure accurate population count in the 
conduct of the census 2000 on American Indian reservations and 
on the Hopi Indian reservations in particular.
    The U.S. Bureau of Census reports that, on average, there 
was an undercount of American Indian people living on Indian 
reservations in the 1990 census by 12.2 percent, as previously 
stated.
    The Hopi tribal government believes that for the Hopi 
reservation, the undercount may be higher, in fact, much higher 
than 12.2 percent. This belief is based on our membership 
records as well as familiarity with local circumstances.
    Using the 12.2 average undercount as an estimator for the 
Hopi Reservation, this would result in a net undercounting of 
861 of the reported reservation population of 7,059 Indian 
persons. That includes Hopi, Navajo, and other tribal members.
    Thus, the corrected 1990 American Indian population for the 
Hopi reservation should be 7,920. Even at this level, we 
believe the number is too low. The Tribe's own official 
estimate of the 1990 reservation population was 9,395 Hopi.
    This estimate was developed by a professional economist 
retained as a consultant to the Hopi Tribe. His research 
resulted in a cohort-survival population growth model that 
takes as its starting point a 1986 population base established 
from tribal enrollment figures.
    The model incorporates Hopi birth and death rates obtained 
from the Keams Canyon Indian Health Service Hospital and in-
and-out migration flows.
    The census 1990 Hopi undercount was strongly objected to at 
that time by our chairman then, Vernon Masayesva, in a letter 
to the Census Bureau Regional Director, William Adams. This 
letter also asserted the official Hopi reservation population 
estimates given above.
    While trying to come as close together as possible in the 
estimates of the Hopi Reservation 1990 population, there still 
remains a discrepancy of nearly 1,500 persons between the 
Census Bureau's corrected count, 7,920 and the Tribe's official 
1990 on-reservation Hopi population estimate of 9,395 people.
    The most important result of this undercount for the Hopi 
Tribe is a shortfall in the amount of Federal funding available 
for delivery of governmental services to the Hopi people. Many 
Federal agencies base their revenue sharing funding formulas on 
the official census population count.
    For Hopi, this would most likely be the uncorrected count 
of 7,059 number. We believe, therefore, we have been 
shortchanged in our share of Federal grant and transfer dollars 
by at least 20.9 percent annually for the last 8 years.
    When the undercount is translated into dollars, we estimate 
that several million dollars have been lost over the past 8 
years. This loss is made worse for us because we are a 
nongaming tribe. When we lose benefits of Federal funding, the 
social impact of that loss is doubly grievous to our villages 
and communities. It cannot be easily replaced from other 
sources such as gaming revenue.
    We believe our situation, while perhaps extreme, is not 
unique among American Indian tribes, and we believe that it 
must not be repeated in the census 2000, neither on Hopi nor on 
any other American Indian Reservation. The importance of 
accurate census figures cannot be overstated.
    Some solutions: Essentially, Congress should open the 
possibilities for closer collaboration between the tribes and 
the Census Bureau so that the work of the Bureau can be 
facilitated but not at the expense of tribes, many, if not most 
of whom, cannot afford the extra financial burden of doing U.S. 
Government's business.
    I have some recommendations for you, which I hope can be 
submitted into the record in the interest of the time 
restraints we have here.
    The most controversial issue before you is that of applying 
statistical sampling in the decennial census. I know that the 
Supreme Court this week ruled that complete enumeration is 
required by law for apportionment of congressional 
Representatives among the 50 States. So be it.
    I also know that as a result of the court ruling, more 
accurate, statistical sampling methodologies can be, in fact, 
must be applied to congressional redistricting and allocation 
of Federal funds where the Secretary deems these methods 
feasible.
    Let it be known that the Hopi Tribe, for reasons of 
achieving more accurate population estimates at a reasonable 
costs, which would, without question, result in more equitable 
distribution of Federal funds to the Hopi Tribe, unqualifiedly 
supports the use of statistical sampling by the Census Bureau 
to derive estimates of our population.
    Last, I understand you were visiting the Gila River 
Reservation today, and I applaud you for that. I want to 
welcome you and invite you also to the Hopi Indian Reservation, 
my homeland, and experience firsthand, as did the Census Bureau 
Central Office managers, what it takes to collect census data 
in Indian country.
    I am certain that the Denver Regional Staff could repeat, 
for your benefit, and enlighten the data collection scenarios 
they derived earlier through these visits.
    Thank you, very much.
    [The prepared statement of Mr. Taylor follows:]
    [GRAPHIC] [TIFF OMITTED]65952.047
    
    [GRAPHIC] [TIFF OMITTED]65952.048
    
    [GRAPHIC] [TIFF OMITTED]65952.049
    
    [GRAPHIC] [TIFF OMITTED]65952.050
    
    [GRAPHIC] [TIFF OMITTED]65952.051
    
    [GRAPHIC] [TIFF OMITTED]65952.052
    
    [GRAPHIC] [TIFF OMITTED]65952.053
    
    Mr. Miller. Thank you.
    Mr. Lewis.

   STATEMENT OF RODNEY B. LEWIS, GENERAL COUNSEL, GILA RIVER 
                        INDIAN COMMUNITY

    Mr. Rodney Lewis. Good afternoon, Mr. Chairman and members 
of the Subcommittee on the Census and staff. Of course, we 
welcome you back, J.D. Hayworth, along with John Shadegg.
    With me is Governor Thomas. Mary Thomas was able to adjust 
her schedule to be here with us today, and she will make some 
comments.
    I'm pleased to provide this testimony regarding the 
problems of historic undercounting of Indian communities in the 
national census.
    The Gila River Indian Community was created by an act of 
Congress in 1859 and covers approximately 372,000 acres located 
in south central Arizona, immediately south of the greater 
Phoenix area.
    Approximately 13,000 of our total 19,000 tribal members 
live within the exterior boundaries of the community. Over the 
past 5 years, our reservation population has grown by nearly 44 
percent, due in part to increased economic and employment 
opportunities available now for our community members.
    Not only is our reservation population growing, but it's 
getting younger. Of those members who reside on the 
reservation, more than 51 percent are under the age of 21.
    Indian reservations pose significant and unique challenges 
to the conduct of a national census. The impact of 
undercounting, of course, is extremely serious and significant. 
Hundreds of millions of dollars each year are provided to a few 
tribes through the Bureau of Indian Affairs under a Tribal 
Priority Allocation methodology, TPA.
    The Governor has recently been intensively involved in 
those discussions and will have some comments about that.
    The Indian Health Service also is funded with allocation 
methodology. Both methodologies are relying on reservation 
population as a key factor in distributing these moneys for 
services for these tribes.
    Census data is used to determine tribes' eligibility in 
extending funding for nutrition programs for children and 
pregnant women, training programs to facilitate the transition 
from welfare dependency to self-sufficiency, community 
development and economic assistance programs, juvenile 
delinquency prevention programs, programs to provide victim 
services, and police training for domestic violence.
    At this critical juncture in history, it is a major 
disservice to Indian people for the Federal Government to rely 
on flawed data to determine representation of an already under-
represented group of people.
    It is incumbent on the Federal Government, our trustee, to 
begin this millennium by forging a partnership with Indian 
tribal governments to develop cooperative methodologies for the 
conduct of the national census.
    We have several solutions, and I believe the problems that 
we described--we join in the comments of the Hopi, Navajos, 
Salt River Pima-Maricopa Indian Reservations in describing 
these problems.
    But first, the Bureau of Census should examine the methods 
employed by Indian tribal governments to update demographic 
information of the tribe and to maintain up-to-date and 
accurate tribal membership rolls.
    Second, there are many different resources within Indian 
tribal governments that can assist greatly in the conduct of 
the national census. Some important resources include various 
tribal departments to provide direct services to community 
members.
    Finally, it is critical that the Bureau of Census employ 
and utilize tribal members. That, of course, is obvious as far 
as the count and enumeration is concerned. Of course, tribal 
members understand the reservation better, but in most cases 
will be--members will be more responsive to community members.
    At this point, I'd like to provide Governor Thomas with a 
few moments here.
    Ms. Thomas. Thank you.

STATEMENT OF MARY THOMAS, GOVERNOR, GILA RIVER INDIAN COMMUNITY

    Ms. Thomas. Thank you, Mr. Lewis.
    It is an honor, and I also want to say how much I 
appreciate the comments of the tribal leaders that are at this 
table and the representatives and also general counsel.
    We're all in concert in what is facing us in regards to the 
census and of the undercounting that's been going on. And it's 
a shame that we've had to rely on this census data since 1990 
to try to apportion what little money we get from the Federal 
Government.
    As you know, the funding has been cut this year. So with 
more heads being counted, there's going to be a great deal more 
competition for those dollars going to the Indian tribes.
    So in regard to the issue about sampling and about this 
scientific method and the actual counting of heads, I wish I 
had a stand on that right now, but I don't because I don't know 
enough about it. It may work in some areas, but in most areas 
that have millions of acres, compared to 372,000 that we're 
sitting on, and with the attempts now to identify roads, name 
roads, give house numbers, etc., we are still a long way from 
completing that, but we are making strides to move in that 
direction.
    It's unfortunate that we are naming our streets Indian 
names. It will be very, very hard to mention those or even 
pronounce those and exactly what we mean.
    Another problem we have is the term Indian. What is an 
Indian? Is it a rural member? Is it an Indian who knows he's an 
Indian but just not affiliated with any tribe? So those are 
other concerns that have been, you know, in our thoughts.
    So I'm just going to conclude them then by saying that we 
have striven this far in order to be heard, and some of us have 
come a long way, but we appreciate the time you take to listen 
to our concerns, and I know most of our comments are written 
and will be provided as part of our testimonies from all the 
tribes.
    Mr. Rodney Lewis. Mr. Chairman, we request that our written 
statement be made part of the record.
    Mr. Miller. Very well.
    Mr. Rodney Lewis. We would like to conclude our remarks by 
thanking our hard-working Representative in the U.S. House of 
Representatives, Congressman Hayworth. We deeply appreciate all 
of your efforts on our behalf.
    I would like to thank Chairman Miller, Congresswoman 
Maloney from New York City, and the committee for coming out to 
Arizona to see Indian country first hand.
    Thank you very much.
    [The prepared statement of Mr. Rodney Lewis follows:]
    [GRAPHIC] [TIFF OMITTED]65952.054
    
    [GRAPHIC] [TIFF OMITTED]65952.055
    
    [GRAPHIC] [TIFF OMITTED]65952.056
    
    [GRAPHIC] [TIFF OMITTED]65952.057
    
    [GRAPHIC] [TIFF OMITTED]65952.058
    
    [GRAPHIC] [TIFF OMITTED]65952.059
    
    [GRAPHIC] [TIFF OMITTED]65952.060
    
    [GRAPHIC] [TIFF OMITTED]65952.061
    
    Mr. Miller. Thank you all, very much, for your excellent 
presentations. They were all very helpful.
    What we'd like to do now is each of us will have the 5-
minute rule chance to ask some questions and get some more 
input and advice.
    Let me start. I'm assuming you've all been working with the 
Census Bureau already and developed your list. Is that correct? 
I'm just curious, how has that relationship developed at this 
stage so far, briefly?
    Mr. Makil. While there have been meetings set up and that 
involvement is to proceed, there really has been not good 
communication in terms of having our folks involved, and I 
think it's--that concerns us particularly because we're so 
close to the metropolitan area. So it's not like it's a real 
difficult thing to do. The problem just needs to be some 
expression of some more effort to work on that.
    Mr. Miller. Mr. Taylor.
    Mr. Taylor. We have had a rather good working relationship. 
And as I mentioned in my statement, we have had visits from the 
Denver Regional Office. We've also had the manager from the 
central office come to Hopi.
    We understand that there was work done, specifically with 
the Acoma Indian Tribe in New Mexico, where they did some test 
sampling. They have also come to Hopi and Navajo and done some 
test sampling.
    So they are making what I believe are important strides to 
try to understand reservations' situations and respond better 
to that.
    And we do have a liaison, and I have a liaison with me here 
as well, Mike Kelly. And so we are doing our very best, and I 
do appreciate the efforts that the Census Bureau has made to 
make that happen.
    Mr. Miller. Dr. McKenzie.
    Mr. McKenzie. Thank you, sir. The Office of Navajo has been 
working very hard and to try to provide us with details of the 
progress programs. I think we are doing pretty good.
    We have had the census--the Census Office has been out in 
the area, working on proceeding with the program of census 
taking. They have provided us with some detailed reports and I 
think things are progressing very well, particularly the review 
of the count that will be done. And they have advised that the 
Navajos dropped the ball the last time, and we are prepared not 
to drop the ball on that this time around.
    Mr. Miller. Mr. Lewis, do you have a quick answer?
    Mr. Rodney Lewis. We have a good relationship, and they've 
been here for our council meetings and been subjected to 
intense scrutiny by our council persons.
    Mr. Miller. Let me ask, we have a 12 percent undercount in 
1990 that we're all very concerned about, of course. And I'm 
just curious. I mean, can you give me a specific reason why?
    Dr. McKenzie, you mentioned the issue of maybe having 
publicity in oral form. Is that a problem, not just in written 
form more because of the literacy issues?
    Can you give me a specific illustration of why people 
aren't completing the form? Is it trust? Is it the written 
form? Is it the enumerator? We're not communicating enough?
    Mr. McKenzie. I think it's a combination of all of those, 
and particularly that the Nation--the Navajo country itself, 
where it is difficult for people to get to destinations because 
of the terrain, and then dissemination of information is a 
problem.
    Of course, people that don't have a sense of urgency to 
review the information that is provided, some simply don't 
care. Some can't get to it. Some don't understand because of 
the terminology. I think that has a lot to do with it.
    And I suspect, also, that maybe the number of counters may 
not have been adequate in the past, but that's a conjecture. I 
believe if we did a review of the record, it would probably 
show there were not enough counters and that the counting was 
probably not done on a chapter level, the smallest of the local 
government.
    If this were done, then the possibility of counting every 
household, every household member would give a much more 
accurate count as we totaled the number of chapters in the 
Navajo community.
    Mr. Miller. Someone else want to say what we are missing?
    Mr. Taylor. I think for Hopi, they are probably two primary 
reasons. There's a really high unemployment rate. Hopi probably 
have an average of 50 percent. And so many of our people have 
temporary jobs, and we're a very mobile society as well, and so 
that contributes to the undercount as well.
    We have many in our population that are resistant to 
participating in any government interaction, and so that 
contributes to that.
    The forms and the protocols, perhaps, that the Census 
Bureau uses also contributes to that as well.
    Ms. Thomas. I think one of the major underlying issues is 
the sensitivity of giving out information for somebody you 
don't know and what they're going to use it for, because in our 
traditions, and maybe all of the tribes, have legends, stories, 
songs and dances that are so sensitive. We do not even share it 
with anybody except within ourselves.
    So the more you give away information from yourself, 
there's the propensity to believe that it will be used against 
you at some point in the future, and that is--we have been 
indoctrinated with that since the settlement of the West.
    Mr. Makil. Just to add to Governor Thomas' comments on 
trust and concern about how the information will be used is 
really one of the major issues facing us in the Salt River 
because as close as we are to the urban area, concern has 
always been about how that information would be used. And 
there's really a reluctance to share information.
    Mr. Taylor. That is very true of the Navajo as well.
    Mr. Miller. Thank you, very much, for your comments. My 
time is up, but this issue of trust is so critical that we'll 
work with the tribal leaders to get the best numbers, and I 
think all of you here know the critical portion of this issue 
is getting accurate numbers.
    Congresswoman Maloney.
    Mrs. Maloney. Thank you.
    First of all, I join my colleagues in thanking the Gila 
River Community for their great hospitality and time that they 
spent with us, with their skills, their hospitals. It was very 
informative. And I hope, at our next meeting, to tour the 
Navajo and the Hopi and the Salt River areas and appreciate 
very much your invitation in your testimony today.
    First of all, the census is absolutely fundamental to our 
form of government. If you're not counted, you're not 
represented, and it's very important that we get a very 
accurate count. And I think it's very important to point out 
that sampling, or modern scientific methods, are only a means 
of last resort to count those who through apathy, ignorance, or 
fear or they just don't want to be counted or unwilling to be 
counted.
    But one of the problems is if you don't want to be counted, 
you hurt your neighbor because if you're not counted or a 
person isn't counted, then the Federal funding, the 
representation that's fair, is not there.
    Now, I want to quote from Dr. Barbara Bryant, and I often 
quote from her because she is a Republican, and she was the 
head of the Census Bureau appointed by former President Bush.
    And I quote from her because I think it's important because 
when we talk about putting more resources behind the problem, 
from her experience and that of the National Academy of 
Sciences, and I quote from her, enumeration simply cannot count 
everyone. Throwing more money at enumeration will not improve 
the count.
    And she states that in 1990, and I quote, we hit the wall 
trying to count everyone by enumeration. We were adequately 
funded. There was no shortage of funds for hiring local, 
community enumerators or making additional efforts. She states 
there was no shortage of funds.
    But in fact, she states that when local communities 
complained to her that their constituencies were undercounted 
and gave the Census Bureau the locations, they went out to 
those locations, mounted an expensive effort to send more 
enumerators out there, which contained 20 percent of the 
Nation's housing units, and that effort added only 0.1 percent, 
that is, one-tenth of 1 percent to the final count.
    And Congress then wanted to correct the undercount. The 
National Academy of Sciences came forward with a plan. It was 
this plan that the Census Bureau is implementing.
    We know today that the American Indian community was 
undercounted by 12.2 percent because the Census Bureau, in 
1990, conducted an integrated--it's called a post enumerations 
survey, or a quality control. So if we had not had that quality 
control, then we would not know that there was an undercount.
    So my question to you--and the quality control used modern 
scientific methods to incorporate the solution or rather the 
information that there was an undercount. And I'd like to know, 
would you support this effort today to have the same quality 
control to go back and see if there was an undercount? And I'd 
like to ask everyone.
    You know, if we don't have a quality control, we don't know 
whether or not there's an undercount.
    Ms. Thomas. Let me begin the discussion by telling you 
this, that the curiosity of what goes on in Indian country has 
led to sampling all along in our history.
    Sampling of the diabetes that's prevailed in my tribe, 
especially, has been announced across the world that we are the 
highest in diabetic incidence. The alcoholism numbers are 
attached to that. And the media picks up on this, and they just 
blast the tribes that we are nothing but alcoholics; we're 
lazy.
    So this sampling, I guess the quality sampling, is what we 
don't really know what it means. You know, is it going to be 
used against us again? You know, are we going to be categorized 
as being low, poor, unintelligent or things like that?
    So it is still something that we need to take a real good 
look at, but we have been doing sampling from day one, and it's 
still ongoing.
    We, on our own, do our own demographic studies, but there's 
been a lot of sampling surveys in Indian country that we don't 
know. That's when we just put our foot down and say no.
    Mrs. Maloney. But it's only to count the number of people 
involved in it.
    Would anyone else have a comment?
    Mr. McKenzie. Your Honorable Maloney, the Navajo Nation, as 
a matter of fact, supports the use of statistical sampling as a 
means of conducting the census, if it, in fact, makes the 
census count more statistically accurate.
    But there's congressional opposition, apparently, to this. 
They support enumeration. However, if the statistical sampling 
is to be used to do a full census counting, then we will 
support that.
    Mrs. Maloney. Thank you.
    Mr. Taylor. I think the question is not necessarily the 
count. The question is the error. We know that any time that 
you do a count, there will be error. And the only way that I 
really believe we can get the best numbers is to look at 
reducing the error for the reasons that we have stated, and 
it's predominate all over, not just on Indian reservations.
    But I believe it is largely true on all of the reservations 
that we're just not going to get the participation, so 
statistical sampling is the way to do it.
    Mrs. Maloney. Thank you, very much.
    Mr. Makil. Well, what I would like to comment on is the 
effort to challenge all of you to help to develop or find a 
better form to eliminate the kind of undercounts that do occur.
    Until there is a better program developed, I think that we 
support whatever, whether it's sampling or any other type of 
program, that will provide an accurate count. Those are the 
things that we support.
    We don't like to get caught in these types of issues as 
tribes because we see our issues not as partisan issues or 
issues of differences. We would like to see it for people to 
get together to resolve this issue and find the best way 
possible. And you know, some people support sampling; some 
don't.
    If sampling is all we have available to us as a way of 
providing that accuracy where there are people missed, then I 
think that's what needs to be done. But until there can be 
other forms developed, maybe that's all we have. But we 
encourage you to find those other forms so that we won't have 
to go through this type of situation.
    Mrs. Maloney. Thank you.
    Mr. Miller. Thank you. The Supreme Court made the decision 
for us, so I think we all need to work on other ways and get 
the best ideas to get the best count.
    I'll turn it over to you, Mr. Hayworth.
    Mr. Hayworth. Thank you, Mr. Chairman.
    I'd like to extend a special welcome to Governor Thomas for 
flying in late from Washington yesterday; for those of you who 
have traveled great distances: Vice-President McKenzie and 
Chairman Taylor.
    I think the chairman has a point. We can sit here and have 
a challenge trying to define terms and naming different actions 
with different labels or descriptions.
    Suffice it to say, whatever you call quality control, if 
people are not counted to begin with and they are not contacted 
in the followup for that quality control, it is a moot point. 
They are left out of the count.
    And Chairman Taylor, I thought your remarks initially, in 
terms of touching on the trust in response to our friend from 
New York, were especially perceptive. As long as there is a 
problem of trust that undergirds and serves as the impediment 
to an accurate count, whatever method is used will be 
challenged.
    Chairman Taylor, let me begin with you because in your 
testimony, you said you had some ideas, but time would not 
allow you to articulate some of the solutions dealing with the 
unique challenges that you may face with the Hopi people.
    What specific changes, in terms of the count, would you 
make initially, in terms of getting people counted?
    Mr. Taylor. I think what we need to continue to do is to 
increase the effort to educate our people and to effectively 
cooperate or collaborate with the Census Bureau, and we have, 
in fact, been part of that.
    But I introduced earlier our director of research and 
planning, who happens to be our liaison with the Census Bureau, 
Mike Kelly. Mike Kelly and his office, and there are other 
programs and departments within the tribe, who attempt to work 
with the Census Bureau, and we are paying these people.
    It's a great expense. We're just trying to make these 
efforts to make the census numbers more accurate, and so we 
would like to see that there could be some funding that could 
be brought to bear for the education process and to help with 
the collaboration.
    And I think, you know, as far as the next--we're heading up 
to the 2000. I think we need to have in mind already the 2010 
and the 2020 and being that education process immediately after 
the April 2, 2000, date.
    Mr. Hayworth. Thank you, Mr. Chairman.
    Just a brief show of hands of all our tribal leaders. Has 
everyone established a liaison? Everyone. OK. That's a very 
helpful sign.
    The other point I wish to make personally with the others 
serving, most of you as your U.S. Congressmen, if there is--
President Makil, you offered your testimony, for lack of a 
better term a lapse of contact with census officials now.
    I would ask all of you if you believe that the contacts 
with the Census Bureau are deficient, please, contact us as 
soon as possible so that we can bring the--one hesitates to use 
the weight, given the physical evidence right here--so that we 
bear--as constitutional officers can bring that to bear in the 
census situation.
    Chairman Taylor, you mentioned in your remarks, Vice-
President McKenzie, you mentioned in your remarks, the economic 
challenges facing your particular and respective nations in 
terms of economic development and serious unemployment.
    You also made mention, particularly, employment that 
exists. I think the good news is that we were taking into 
account the enormous challenges faced by Indian country. The 
chairman, in his remarks, offered a notion that we are 
designating and trying to set aside more resources, precisely 
to count people.
    And I think there may be, indeed, economic opportunities 
for people to develop across jurisdictional challenges that we 
may face in terms of Ways and Means, lifting some restrictions 
so that some people might be hired.
    But also I would like to commend all of you for the remarks 
you have made in terms of tribal sovereignty and priorities 
based on your own unique cultures and situations.
    Mr. Chairman, this is what I would call the myth of the 
monolith that exists with a variety of different groups, the 
notion that there is, perhaps, no diversity in the way that the 
tribal governments deal with circumstances.
    And as we saw today on the Gila River Tribe, as Chairman 
Taylor mentioned when he said, please, come visit the Hopi 
people, there is a wide disparity of circumstances there, and I 
think it proves our point that if we work closely with 
respective tribal entities to develop a plan, to hire 
enumerators that are familiar and, indeed, comfortable in the 
culture involved, we can have much better success.
    It certainly does take the notion of transferring money, 
power, and influence out of the hands of Washington bureaucrats 
and pouring it into the hands of those elected leaders and 
those sovereign leaders to help solve this problem. I think 
we're heading in the right direction.
    Mr. Miller. Thank you, very much. We really appreciate you 
joining us, and we really appreciate having Mr. Shadegg join 
us.
    Congressman Shadegg.
    Mr. Shadegg. Thank you, Mr. Chairman. I wanted to make my 
remarks, quite frankly, directing them at, with all due 
respect, my friends from Florida and New York because, quite 
frankly, Arizona is so unique and the circumstances here are so 
stunning.
    I happened to have had the good fortune to spend a number 
of years in the Arizona Attorney General's Office and work on 
election laws in that capacity and it was quite an education.
    On the back of the registration forms in Arizona, at least 
in rural counties, you will actually find a little cross hair 
like this. And the reason for that is when you conduct 
registration, as when you conduct a census, we begin in Florida 
or New York with an address.
    In the Navajo reservation--and I happen to have spent an 
election day in Hard Rocks, Vice-President McKenzie, so I've 
been out on the reservation on election day, and you can't 
list--you can't go to a voter and say, well, put down your 
address for voter registration purposes. So you'll see cross 
hairs on the back of an Arizona registration voter form like 
that.
    And what people in rural Arizona, particularly on Indian 
reservations, have to do is describe where they live by 
references to these two lines. And what are the two lines? 
They're often a trail, a dirt road, occasionally a paved road, 
a ridge line of mountains, a fence line, a telephone pole line, 
a riverbed, or a ditch--an irrigation ditch, and people 
describe their home as 1\1/2\ miles north of the dirt road--
this particular dirt road and that particular ridge.
    It gives you, Mr. Chairman, when you ask what are the 
problems with regard to how do we get an accurate count on 
Arizona reservations; when you come to New York or Florida, 
perhaps you can't envision this kind of difficulty where people 
describe their residence by reference to 1\1/2\ miles east of a 
dirt road or a particular creek or river running through the 
Navajo reservation. So I think that begins to give you some 
idea of what we're are dealing with.
    In addition, Vice-President McKenzie, I want to make some 
reference to the question of oral language. Under the Voting 
Rights Act, voting materials are required to be presented to 
people in their native language.
    And in this particular case, you probably don't know, that 
the Navajo language is not a written language, and so the 
Navajos need to be, as a matter of Federal law, provided voting 
material orally in order for them to be able to understand and 
make selections in a fair fashion like the rest of the 
Americans.
    That means that the Census Bureau has to provide its 
information orally in order to comply with that law, certainly 
to get an accurate count of Navajo people and other people. In 
that regard, I think you begin to see some of the burdens that 
we have in Arizona to get an accurate count.
    I thought there were several comments that I wanted to 
followup on, but I don't think they are pertinent to the 
difficulty of getting an accurate count.
    Governor Thomas, I think you make a great point regarding 
trust and sensitivity, and it is clearly understandable to me 
that Native American people would not want to answer questions. 
And the first question that comes to me is they certainly 
wouldn't want to answer questions if they were not being asked 
by another member of the tribe.
    So my first question to each of you is, do you know if on 
your reservations in the 1990 census the enumerators used were, 
in fact, members of your own tribe?
    Ms. Thomas. Yes, they were.
    Mr. Shadegg. They were.
    Ms. Thomas. I want to also acknowledge somebody in the 
audience. The director of the Maricopa Associations of 
Government, Jim Bourey, who is sitting in the front row over 
here.
    He and his staff and the Maricopa Association of Government 
have made a tremendous outreach to our particular community as 
well as Salt River's in order to include this information on 
the web sites dealing with the information for the year 2000 
census, and we will do our part too.
    Mr. Miller. Do any of you know if the enumerators used were 
members of your tribe?
    Mr. Taylor. The Hopi it was, yes.
    Mr. Rodney Lewis. Yes.
    Mr. Taylor. Salt River were some members hired but also 
others.
    Mr. Shadegg. I can see how it would be extremely important 
that they would need members of their tribe in order to 
understand the geography and the peoples.
    By the way, I want to make a comment that, Mr. Lewis, your 
testimony, I think, does an excellent job of highlighting the 
difficulties--some of the physical difficulties in conducting a 
proper census, and I commend each member of the panel.
    The second question, do you believe--you've been asked 
already about cooperation at this stage with the Census Bureau. 
You have all indicated that there is some level of cooperation, 
and I gather from your answers that you'd like to see greater 
cooperation. And, I heard my colleague Mr. Hayworth invite you 
to contact him so that he can weigh in on your behalf during 
that process.
    I guess I'm interested if you have reason to believe that 
the Census Bureau is adequately working with you at this point. 
I know that President Makil indicated that there was some of 
that there, but not, perhaps, as much as he would like to see.
    I think it is important that you understand that we think 
it's important that they cooperate with you and particularly, 
Chairman Taylor, you mentioned not just cooperating in doing 
the census but cooperating in planning the census because if 
they plan it wrong, not understanding the circumstances, then 
you can't very well do it right.
    And so I'd ask the question on that and urge you, by the 
way, to be the squeaky wheel and trust the Census Bureau to do 
their job. So the question is, do you agree that they are 
working with you? Are they working with you on planning at this 
point?
    Mr. Makil. The planning part has been the part that has 
been very minimal.
    Mr. McKenzie. The Navajo has been good.
    Mr. Rodney Lewis. We've had good cooperation.
    I'd also like to emphasize, we need to do our part too--the 
tribal governments. We need to make sure that we have a good 
roll mark, road system documented. We need to make sure the 
location of the houses are documented, and that's our 
responsibility for our own purposes also. That's our 
responsibility.
    Mr. Shadegg. All right.
    Ms. Thomas. I might also add that our planning should not 
conflict with the planning of the Census Bureau. It has to be 
constant.
    Mr. Taylor. I just want to add that while the cooperation 
has been good, we have been involved.
    I mentioned earlier that resources aren't readily available 
to the Hopi. And to the degree we want to be able to work with 
the Census Bureau, it's taxing on our limited revenues, and I 
think there needs to be some resources coming in so that we can 
do our part to help with the census.
    Mr. Shadegg. Thank you all, very much.
    Mr. Miller. I just want to thank you all for participating 
here today. We will go now to our next panel.
    Thank you, very much.
    Ms. Thomas. Could I just make one more remark and that is 
we appreciate the bill about the waiver on the people who are 
possible candidates to conduct the census for us. That would be 
a great help to all of us. Thank you.
    Mr. Miller. Thank you.
    If we can take a minute while we change the names--signs, 
if the panel would come forward; our next panel will be Mr. 
Scott Celley; Representative Doug Lingner is unable to join us; 
and John Lewis and Mr. Jack Jackson, please, come forward.
    I'd ask if all three of you would stand and raise your 
right hands, please.
    [Witnesses sworn.]
    Mr. Miller. The record will show that they all said I do.
    And we'll begin now with the opening statements, and we'll 
give it to Mr. Celley. Is that correct?

STATEMENT OF SCOTT CELLEY, EXECUTIVE ASSISTANT TO GOVERNOR JANE 
                              HULL

    Mr. Celley. Executive assistant to Governor Hull, State of 
Arizona and I do express the Governor's regret that she could 
not be with you here today, and she did want me to extend a 
welcome to the visiting members of the committee and thank you 
for making the trip out here and taking up such a critical 
issue like ensuring a complete count for Native Americans in 
the year 2000 census.
    She also wanted me to convey her appreciation--our 
appreciation and the State for the role that Congressman 
Hayworth has taken in highlighting the challenges that exist 
for our Native people. An accurate count of our Native American 
population and, really, the unrelenting advocacy that 
Congressman Hayworth has exhibited for a variety of needs that 
the Indian communities in Arizona have and how all of us can 
participate in meeting those and incorporating them in the rest 
of our State's activities.
    Likewise, Congressman Shadegg has been, as was mentioned 
here earlier, very involved in this process in Arizona for a 
long time. He is highly knowledgeable about it, and we are very 
grateful that he has participated up to this point and uses his 
spare time to continue to be involved in making sure that this 
process works.
    The Governor did have a statement, which, if I may, I'll 
just submit in the record. I'll just make a few other comments 
so we can keep moving along this afternoon.
    As she knows well, having resided on the Navajo reservation 
for a number of years, challenges there are unique. At the same 
time, the contributions that our Native American population 
make to the diversity and the cultural and historical nature of 
our State make the incorporation accurate and complete 
incorporation of Native American populations vital to getting 
as many as possible in the family photo of the State of Arizona 
in the national census next year.
    Accordingly, we have been grateful, in conversations that 
we have had with the Census Bureau, as some of the earlier 
witnesses indicated, that they have made an aggressive effort. 
And in my conversations with our folks at the regional office, 
they have sought out, early on, members of tribes to be 
employed and trained as Census Bureau employees for the count 
next year so that an accurate job can be done on the 
reservations. And in making that interaction that brings 
confidence to the members of the tribe, which is members of 
their own community that they know and trust.
    The other issue that the Governor brings forward on every 
occasion that is evident, I'm sure, to you as you travel around 
the valley here earlier today is just how fast Arizona is 
growing. And frankly, that is an area of major concern in the 
census, and I know that Mr. Bourey will go into some greater 
detail as far as Maricopa County is concerned.
    But I think Congressman Shadegg, just a moment ago, painted 
a very vivid picture of just how challenging it is in some of 
the rural areas of our State to get an accurate count because 
of how the information is displayed.
    We found it sometimes helpful for people to know that just 
in Maricopa County last year, as many people moved in as make 
up the size of Manchester, NH; Berkley, CA; or Laredo, TX. We 
had a whole city of that size move into this county just in the 
last year. The same thing will occur between now and next year.
    The big concern that the Governor has and that we really 
seek your assistance on, as the Congressman indicated, we are 
going to keep coming back to you for your help in helping the 
Census Bureau keep up with that growth.
    We've had many conversations and we're pleased that there's 
notice that has been taken by the Census Bureau and their 
accurateness, but as we understand it now, the address lists 
for the 2000 census will be closed out at some point in time 
prior to the actual census.
    The estimates vary on this, but in a year's time, just 
Maricopa County will add 40- to 50,000 new addresses. If you 
break that down and we cut the list off 3 of 4 months ahead of 
the census itself, we're going to miss 12- to 15,000 addresses 
that would just not be on anybody's list.
    So we are eager for the process with the Census Bureau to 
perhaps meet with Arizona--Arizona and Nevada and a few other 
States that are growing so fast, that allows us to come in and 
recheck those lists and maybe reformat them and add to them the 
addresses of homes that have been added to our county and our 
State in the time they close out their list--or are scheduled 
to close them out.
    With that, I think I will dispense with the rest of the 
sentiment of the Governor's remarks. You have a copy of her 
statement today.
    I would make one observation, having just heard, Chairman 
Miller, your explanation of your plan here earlier, I think 
with some confidence I would say that that would be greeted 
with great enthusiasm by Governor Hull. You've hit on many of 
the things that we really believe are critical as far as the 
Federal Government and Census Bureau's assistance to us.
    And just a quick touch on a couple other things. One is as 
far as the advertising budget is concerned, it is clear, I 
think, in earlier testimony that we have some unique 
communities in Arizona with unique needs, especially the 
education and assurance that they can rely on the 
confidentiality of the census survey and also knowing how 
important the census is to the benefits that they, their 
families, and children receive. Having an increased promotional 
program such as you suggested, I think, is very grievous.
    I would make one observation, as Congressman Hayworth noted 
earlier in conveying how important the Federal Government is to 
the States, that if it would be possible for you to identify 
both the advertising budget and matching program in a way that 
allows the decisions and resources to be available on the local 
level and decisions to be made on the local level.
    But as Congressman Shadegg mentioned earlier, there are 
very unique situations in Arizona. If the decisions about how 
to use those resources for a more accurate census can be made 
as close to, say, the chapter level, the better off the 
census--the better and more accurate the census would be.
    And we appreciate the opportunity to be here.
    Mr. Miller. Thank you, very much. Let me ask one final 
question. I think I saw a photograph in the paper earlier this 
month that showed that all statewide elected officials in the 
State Office in the State of Arizona are women. Is that 
correct?
    Mr. Celley. That's correct, yes.
    Mr. Miller. Did you see that?
    Mrs. Maloney. I most certainly did, and I was hoping one of 
them would come and testify. But we did have the Governor here, 
and she's the first woman to be elected Governor of a tribe, as 
I understand it. So women are doing very well in Arizona. I 
ought to spend some time out there, and find out how you made 
that happen. I think it's great news.
    Mr. Celley. Mr. Chairman, four of our five statewide women 
officials are Republican.
    Mrs. Maloney. One is a Democrat.
    Mr. Celley. One is a Democrat, yes. Representative Maloney, 
we do have a bumper sticker for sale in the gift shop at the 
State Capitol that says ``Arizona, State for Women Leaders.''
    Mrs. Maloney. I'll have to buy one of those.
    Mr. Miller. Thank you, very much.
    Mr. Lewis.

   STATEMENT OF JOHN LEWIS, EXECUTIVE DIRECTOR, INTERTRIBAL 
                       COUNCIL OF ARIZONA

    Mr. John Lewis. Chairman Miller, members of the committee, 
my name is John Lewis, and I am the executive director of the 
Intertribal Council of Arizona. The Intertribal Council of 
Arizona is an association of 19 tribal governments in Arizona. 
The ITCA appreciates the opportunity to provide testimony on 
census 2000.
    I want to thank you for holding a field hearing in Phoenix 
and providing tribes an opportunity to share their ideas on 
achieving an accurate census count in the community and 
certainly share the committee's thoughts on ensuring the fair 
and accurate count of American Indian people.
    And I think that on improving the count, as has been 
stated, what I'd like to do is submit for the record written 
testimony and highlight some of our thoughts and 
recommendations for you.
    And I think one is just in terms of improving the count as 
has been shared with you, the working relationship really does 
need to be based on trust between the Congress and the agency 
and the tribes. We need to really work toward that and ensure 
the working relationship there, and the outcome will be very 
successful.
    And certainly appreciate the approach the committee has 
reflected in the opening statements. A number of things that 
you have identified that you want to do, particularly in 
relation to making changes to improve this effort, were very 
well thought out and we really appreciate the committee and its 
approach.
    On hiring, again, I think the Census Bureau should continue 
to recruit and hire American Indians on the reservations that 
represent the population to be enumerated, with special 
consideration of the hiring of Indian elders, again, due to the 
large and growing numbers of elderly tribal members who are 
more likely to trust other elders; and also share the efforts 
of Congress to approve legislation that would waive certain 
income limits for recipients of Federal benefits who serve in 
the temporary positions during the census.
    That education and outreach program and funding be 
appropriated and maintained through the Census Bureau to 
facilitate direct consultation with American Indian 
representatives for the purpose of seeking input on media 
campaigns, education materials, and promotional items; ensure 
that census media campaign materials are available in languages 
other than English, especially for the audio and visual 
communications.
    We also urge the Census Bureau to distribute census 
promotional materials to tribes as early as possible in 1999, 
and particularly develop education and materials for problem 
members to inform them on how to specify their tribal 
membership on both the short and long form. For the data and 
reports to be useful, the tribes must have access to tribally 
specific and residential numbers.
    In the area of census methodology in Arizona, the majority 
of tribes have requested the method termed update and enumerate 
for counting in the 2000 census. This method ensures the census 
workers visit the households and assist household members in 
completing the census form. If household members are not home 
at the time of the visit, the census worker would revisit to 
ensure an accurate count.
    We urge Congress to allocate the necessary funds that all 
tribes may, if they desire, use this method and for the Census 
Bureau to consult with tribes to educate and motivate American 
Indians to respond to the census.
    Also the Census Bureau's continuing research and 
development of technological advances, including but not 
limited to laptops and geographical mapping, which can assist 
in improving the enumeration of tribes in remote locations.
    In the area of tabulation of data on American Indians, that 
it's important for tribes to have the knowledge to use the 
information from the census and opportunity to have reports and 
data available to them in a user friendly format.
    All census reports include separate American Indian 
tabulations by tribe, irrespective of their small 
representation; that procedures be developed to allow tribes 
access to data bases of small numbers of less than 50,000 
records.
    I think this is the information that is needed by tribes to 
be able to assess and provide a baseline data for evaluation of 
community needs and program planning.
    In the area of improving the accuracy of the count, that--
we do know that the Supreme Court recently ruled that current 
law prohibits the use of scientific sampling for apportioning 
congressional seats among the States.
    While the court's decision prohibits the use of these 
methods for purposes of apportionment, it does not restrict 
these scientific methods for redistricting or for the 
distribution of resources tied to census numbers. We'd 
recommend the scientific sampling supplement aggressive direct 
counting method.
    We'd also like to see Congress provide funding to employ 
the most up-to-date scientific methods for nonapportionment 
processes.
    And I'd like to conclude by saying that we'd like to 
acknowledge the efforts of the Census Bureau in Denver Regional 
Census Center. They have recruited American Indian staff to 
work closely with the tribes in Arizona. The Tribal Partnership 
Program is strengthening the government-to-government 
relationship between the tribes and the Census Bureau.
    Thank you.
    [The prepared statement of Mr. John Lewis follows:]

    [GRAPHIC] [TIFF OMITTED]65952.062
    
    [GRAPHIC] [TIFF OMITTED]65952.063
    
    [GRAPHIC] [TIFF OMITTED]65952.064
    
    [GRAPHIC] [TIFF OMITTED]65952.065
    
    [GRAPHIC] [TIFF OMITTED]65952.066
    
    [GRAPHIC] [TIFF OMITTED]65952.067
    
    [GRAPHIC] [TIFF OMITTED]65952.068
    
    Mr. Miller. Thank you.
    Mr. Jackson.

  STATEMENT OF JACK C. JACKSON, JR., DIRECTOR OF GOVERNMENTAL 
         AFFAIRS, NATIONAL CONGRESS OF AMERICAN INDIANS

    Mr. Jackson. Chairman Miller, Representative Maloney, 
Congressman Hayworth, Congressman Shadegg, good afternoon.
    On behalf of Ron Allen, president of the National Congress 
of American Indians and chairman of the Jamestown S'Klallam 
Tribe located in Washington State, I would like to thank you 
for this opportunity to present a statement on concerns facing 
American Indians in the decennial census.
    My name is Jack Jackson, Jr. I am a member of the Navajo 
Nation and was born and raised in Arizona. I am the second son 
of Arizona State Senator Jack Jackson, Sr., who represents 
District Three and is in the audience today.
    Currently, I am director of governmental affairs for the 
National Congress of American Indians, the oldest, largest, and 
most represented Indian organization in the Nation. On behalf 
of our 250 member tribes I want to thank this committee for 
holding a field hearing in Phoenix to enable tribal leaders an 
opportunity to share their ideas on obtaining an accurate count 
of our people in the 2000 census.
    We all know that the 1990 census undercounted the American 
Indian population by 4.5 percent. There were 175,000 missed; 
12.2 percent of those living on reservations were not counted. 
It should come as no surprise, then, that the American Indians 
will not settle for a similar outcome in 2000.
    We applaud enactment of the Decennial Census Improvement 
Act in 1992, a law that directed the National Academy of 
Sciences to conduct a thorough review of the census process and 
recommend ways to increase the accuracy. We also applaud the 
Census Bureau's efforts to simplify census procedures and 
operations and to form early and more extensive partnerships 
with tribal government.
    We commend this committee for seeking the view of those who 
best know and understand the pulse of their communities and who 
can recommend the most effective ways to encourage 
participation in the census.
    We are hopeful that this early, sustained effort to improve 
the census process will lead to a fairer and more accurate 
count of the American Indian population in the 2000 census.
    We have several recommendations, which are included in my 
written testimony, and I just want to highlight the most 
important ones.
    One is that the Census Bureau must abide by the 
constitutional-based government-to-government relationship set 
out in the President's 1990 Executive order. To this end, we 
urge the Census Bureau to sign its American Indian and Alaska 
Native Policy, which recognizes and commits to a government-to-
government relationship with federally recognized tribal 
governments that will be reflected in all its policies, plans, 
and programs.
    Chairman Miller, Representative Maloney, we firmly believe 
that these recommendations for culturally sensitive activities, 
guided by knowledgeable tribal leaders, as we heard today, will 
go a long way toward improving the count of American Indians in 
the 2000 census.
    At the same time, we recognize that the barriers to an 
accurate count on Indian reservations are often pervasive and 
difficult to overcome, no matter how well intentioned the 
effort. We are not willing to start the next century with an 
incomplete portrait of our people and their homelands, a 
portrait that might exclude nearly 1 out of every 8 Indians 
residing on our diverse tribal lands.
    Earlier in my statement, I mentioned the National Academy 
of Sciences study requested by Congress shortly after it became 
clear that the 1990 census had fallen far short of 
expectations. The panel of experts convened by the Academy, 
along with the vast majority of experts who have studied the 
census process, reached a sobering conclusion: Traditional 
census methods alone cannot reduce the differential undercount 
of American Indians, Alaska Natives, and other people of color 
that have plagued the census for so many decades.
    Mr. Chairman, there are many tribes that have come to share 
the belief of these many scientific experts that the census 
must change because our country is changing. Intense 
preparation and counting efforts are critical components of the 
census regardless of whether sampling techniques are a part of 
the design.
    That is why NCAI and the tribes will be do everything 
possible to assist the Census Bureau in compiling a high-
quality address list, preparing and distributing appropriate 
educational and promotional materials and identifying qualified 
tribal members to serve as crew leaders, enumerators, and 
outreach specialists.
    But even a massive coordinated counting effort will 
inevitably miss millions of people, far too many to ignore. We 
must build promising, new methods into the traditional process 
in order to give life to these invisible people.
    Therefore, we expect and urge Congress to support the 
Census Bureau's plan for a census that uses sampling and other 
statistical methods to improve the accuracy of a so-called 
traditional census count.
    We are fully aware of the Supreme Court's ruling earlier 
this week, finding that the law prohibits the use of sampling 
in calculating the population totals used by congressional 
apportionment. But we are heartened by the court's recognition 
that the law does not prohibit, and may require, the use of 
sampling methods to produce data that can be used for other 
purposes, such as the allocation of Federal aid.
    It is the second planned use of sampling in the Bureau's 
original 2000 census plan, the Integrated Coverage Measurement 
Program, that is designed to eliminate the persistent and 
highly disproportionate undercount of minorities and poor.
    This statistical program was planned for communities of 
every kind, including on Indian reservations. We believe it 
represents the only real hope for avoiding the unacceptably 
high undercount of American Indians and Alaska Natives that 
occurred in 1990.
    We believe that Congress must consult with the Census 
Bureau immediately to determine the feasibility of adjusting 
the census counts for any undercounts and overcounts. Then 
Congress and the administration must ensure that the Bureau has 
the fiscal and personnel resources it needs to get the job 
done.
    Mr. Chairman, thank you for this opportunity to present 
this statement in connection with this vital issue. I thank you 
for the opportunity to appear before you today and would be 
happy to answer any questions you may have. Thank you.
    [The prepared statement of Mr. Jackson follows:]
    [GRAPHIC] [TIFF OMITTED]65952.069
    
    [GRAPHIC] [TIFF OMITTED]65952.070
    
    [GRAPHIC] [TIFF OMITTED]65952.071
    
    [GRAPHIC] [TIFF OMITTED]65952.072
    
    [GRAPHIC] [TIFF OMITTED]65952.073
    
    [GRAPHIC] [TIFF OMITTED]65952.074
    
    [GRAPHIC] [TIFF OMITTED]65952.075
    
    [GRAPHIC] [TIFF OMITTED]65952.076
    
    [GRAPHIC] [TIFF OMITTED]65952.077
    
    [GRAPHIC] [TIFF OMITTED]65952.078
    
    [GRAPHIC] [TIFF OMITTED]65952.079
    
    [GRAPHIC] [TIFF OMITTED]65952.080
    
    Mr. Miller. Thank you all, very much.
    Congressman Hayworth had a funeral to attend and had to 
leave, so he won't be joining us this afternoon.
    Before we begin questions, first of all, I want to welcome 
Senator Jackson. It's nice to have someone from the State 
legislature join us. Thank you, very much, for being with us 
this afternoon.
    Congressman Shadegg, thank you, again, for your 
explanation. We both represent fairly urban areas, and you 
represent the extremely urban area of Manhattan. But this is 
part of the process that I think we're here, is to help get a 
better understanding of the problems. So I think we gained a 
great deal by our visit this morning, by Governor Thomas and 
other people who are here.
    As a former statics professor, I have taught statistics for 
many years, and I respect the use of sampling. But the fact is, 
you know, the Supreme Court has spoken, so what we need to do 
now is move forward and do the best job we can.
    And I came out with a proposal to provide as many resources 
as is possible to throw at this issue to get the best count 
possible. That is the reason that, knowing that the American 
Indian is an undercounted population, we really want to work as 
much as we can on this very specific problem because we just 
kind of dwell on that.
    And I actually think--there's no question the Supreme Court 
ruled on the issue of apportionment, and I think it--legal 
authorities tell me because of districting. But for money, 
you're right. It does. And the court made it very clear that 
you can use any method you have to. We just have to have a 
number to trust. And when you get to larger populations, county 
populations, city populations, it's a little different issue in 
statistics.
    But anyway, as I have proposed, there are a lot of ways to 
increase the spending for paid advertising. We've not used the 
paid advertising program in the past. With $100 million 
proposed, and I propose increasing it to $400 million, I think 
the President will probably be coming out with a proposal. 
Hopefully, he will propose an increase too. But we are willing 
to spend the money.
    I'm curious about how you would suggest targeting 
advertising that would be most effective? And maybe advertising 
is not the most effective way. Maybe it's just the partnership 
program. How do you think is the most effective way to handle 
that?
    Mr. John Lewis. Some of the ideas and thoughts were 
presented by the tribal leadership, but I think the audio and 
visual. And many of the tribes have access to radio programs 
either in their own language or by their own radio stations or 
by the nearby off-reservation radio stations that provide 
programs for them and advertising. I think that the use of that 
and television would be possible and would be very important.
    So identifying the links, the communication, particularly 
radio and TV that go into the reservations, would be very 
important, and that is something that does have its benefits in 
terms of communication at this time. I think that needs to be 
looked into and dealt with.
    Mr. Jackson. I'd like to say that any media campaign must 
adhere to the principle of tribal consultation. I know that in 
the past there was a big problem with the radio campaign, and 
that stemmed from lack of consultations with the tribal 
leadership.
    Mr. Miller. Mr. Celley.
    Mr. Celley. I think one of the other aspects of your 
program that might have more use, I think there are, in certain 
areas, 21 registered tribes in Arizona.
    And one of the points that we all want to make is that 
there is incredible diversity in the populations and the way to 
reach them differs. You cannot just put a cookie cutter down 
and say this is the way we're going to communicate with tribes 
because the tribes are different.
    One of the initial possibilities with the partnership 
program and also just putting specialists out in some of these 
areas is potentially having census specialists available in 
these areas.
    As we mentioned earlier, especially Navajo reservations, 
they are organized by chapter houses; put on specific events in 
those areas where the community is used to gathering anyway, 
have a presentation made by leaders in the community who are 
trusted and who everyone relies on, more accurate information 
could be provided.
    That isn't an advertising campaign. That is a very specific 
culturally sensitive way of using the resources we have 
available for getting an accurate count in those hard-to-reach 
communities.
    Mr. Miller. I didn't have time to ask the question of the 
previous panel, but how accurately do the Indians know their 
population within their reservations right now? A lot of them 
are in very remote areas. But how accurate is the list that 
they keep today? Are you aware of a registration program or 
what have you?
    Mr. John Lewis. The tribes do a very good job looking at 
the enrollment and wanting to have tribal enrollment and 
keeping these records up, and it is required for many of their 
activities that they do that.
    That's a constant, ongoing effort by the tribe in achieving 
that. And certainly, with the high-technology age, it has 
become a little easier, but that is a continuing challenge for 
the tribes to maintain that.
    As far as identifying people throughout the tribal lands, 
again, a lot of that is well-known by the tribe. But again, as 
a matter of how best to access or get to map that, and the 
tribes are proceeding in doing that as well. So they are well 
on the way to doing a very good job in maintaining that 
information.
    Mr. Miller. Thank you.
    Mrs. Maloney.
    Mrs. Maloney. I would like to add my voice in thanking all 
the panelists for coming today, particularly Mr. Jackson who 
came all the way from Washington. We appreciate your testimony. 
We appreciate you being here, and I must acknowledge your 
father.
    I didn't realize he was a State Senator here in Arizona and 
has probably been through redistricting several times and knows 
how important it is to get an accurate count not just for 
planning purposes but for representation purposes.
    Mr. Lewis, I had a wonderful day today with your brother. 
He was with us on our tour of the reservation, and I just 
wanted to mention how much I enjoyed the company of your 
brother.
    I loved your testimony. You went right to the point, 
recommending that scientific sampling supplement aggressive 
direct counting methods as a result of post enumeration survey.
    But my question today is really directed to Mr. Celley. As 
you know, Phoenix joined a lawsuit in 1990 objecting to the 
undercount, as the city officials saw it, and they were a 
plaintiff in a 1990 lawsuit suing the Commerce Department 
because the city of Phoenix wanted modern, scientific methods 
sampling adjustment of the census to occur.
    Can you tell us why the city was in that lawsuit?
    Mr. Celley. Mr. Chairman, Representative Maloney, I could 
make a flippant observation that it was another of the unwise 
decisions by the mayor. I do not know why they did that.
    I know from my conversations with the city of Phoenix 
officials presently, that they know that under any scenario 
that you conduct a census, you've got to have an accurate and 
complete--or complete as possible base from which to base any 
additional statistics or adjustments.
    And so I think the commitment has been, this time around--
in fact, I know there's contemplation of a lawsuit by the city 
this time, and they are not, as far as I know, participating in 
it because a decision was made that every resource needed be 
made to the most full and complete actual count of people under 
any scenario the Census Bureau makes use of hereafter.
    Mrs. Maloney. Well I, must say that Dr. Bryant, who was a 
Republican, stated that sometimes they enumerated every door 
six times, and if someone doesn't want to answer the door, yet 
everyone knows there's people in there, there's a problem.
    I thought one of the most telling questions was asked by 
Stevenson on the Supreme Court. He asked: What if everybody in 
the community knows a family of six lives in a building but 
they won't answer the door, and the Census Bureau goes there 20 
times and they still won't answer the door? How would those 
people be counted?
    And the person arguing said as a zero. Bryant said, what if 
the lights go on and off at night? It would still be counted as 
a zero.
    But I want to ask you another question, and I know that it 
pertains to legislation that I support, that the chairman is 
working on with my colleague Carrie Meek. They are making an 
effort to hire people from welfare to work on the 2000 census.
    But unfortunately, in some States, taking a temporary 
position with the Census Bureau can cost an employee certain 
benefits, such as health care. In addition, these workers--one 
particular employment can--you have to wait up to 6 months for 
their benefits to be reinstated.
    Can you explain Arizona's welfare laws with regard to 
temporary employment? As you've heard, there is an effort, and 
the tribal leaders have supported it, that we hire welfare 
recipients to help with this count. Would Arizona--can you 
comment about the laws in Arizona? Would they be deprived of 
their health care and their benefits for 6 months? Do you know?
    Mr. Celley. If I may, if I could just respond to your 
earlier comment as to people being home and not responding and 
as we've discussed here earlier today, it is a very real issue, 
especially in the reservation communities. I would suggest 
also, within a very few blocks or miles of here in Hispanic 
areas of our city that confidence in the census process needs 
to be established.
    I think the chairman's proposal to spend more money 
advertising and have more people in the community with 
confidence and with neighbor/neighbor relationships so that 
there is not concern about that person knocking on the door, is 
an extremely useful way of getting at that.
    It's a big issue for us here, and it is very helpful to 
spend some time and some money establishing just the base 
confidence of this process and understanding by those.
    Mrs. Maloney. I agree. I agree. I think we should spend all 
the money, have all the visits and everything, but they still 
have had an undercount.
    Mr. Celley. Just to your welfare-to-work question as well, 
I am not an expert in that area and cannot in detail respond to 
it. But I would say, we actually are in the state of flux in 
Arizona with our welfare-to-work program, and not all of our 
rules have been established yet, partly because it is sitting 
on our waiting list and has been for a year now, to approve to 
allow participating in that program.
    But we have been working with the Census Bureau on our 
State welfare-to-work program because I agree that is a 
marvelous way, especially in the economy such as we have, that 
everyone who wants a job, basically, has a job.
    Mrs. Maloney. I certainly support the Chair's comments on 
that. Very briefly, I----
    Mr. Celley. If I could just say, this is a tremendous way, 
we think, and the Census Bureau is an advocate, wherein people 
who do not have a job skill and trying to get off of welfare 
can get training by the Census Bureau in a short-term 
situation; and in that experience, learn job skills that they 
could use elsewhere.
    Mrs. Maloney. If you could get back to our committee in 
writing, maybe we should reach out to all of the States to get 
this information.
    My last question, very briefly, is if the undercount is 
eliminated or at least significantly reduced for the State of 
Arizona in the 2000 census, do you know if Arizona would gain 
two more seats in the U.S. Representatives?
    Press reports estimate that if the undercount was correct 
in Arizona, you would gain two congressional seats. Have you 
looked at that, or do you have any----
    Mr. Celley. Mr. Chairman, Representative Maloney, I believe 
the estimates to date, based on the numbers such as we know 
them, does award both a first and second division seat in 
Arizona with some narrow margin. So it is something we've got 
to keep a very careful eye on.
    One of the things that we have some confidence in is the 
way that we were growing and the pace that it continues to 
grow, even presently growing faster than had been predicted, 
that we may have a little more of a cushion than we thought.
    Mrs. Maloney. That's probably why Arizona joined the 
lawsuit.
    Mr. Celley. I think it was a narrower loss, actually.
    Mrs. Maloney. Well, what would be the impact on the State 
legislature if the undercount was significantly reduced? Do you 
have any feeling for the impact on the State legislature?
    Mr. Celley. Mr. Chairman, Representative Maloney, 
Congressman Shadegg knows well, we have a hard time predicting 
exactly what it's going to look like after the next count 
because it's uncertain who's going to be deciding how to draw 
the lines and who will be drawing them.
    There is a proposal in the legislature to farm that out, 
and it may be established in a way none of us have ever seen 
before.
    Mrs. Maloney. My time is long over. Thank you all. 
Excellent testimony from all of you.
    Mr. Miller. Thank you.
    Mr. Shadegg.
    Mr. Shadegg. Thank you, very much. You're welcome to have 
some of my time Mrs. Maloney. I enjoyed the questioning. I do 
thank the panel for its participation.
    Let me focus on one issue that I found fascinating. In your 
testimony, Mr. Jackson, which I thought, by the way, was some 
of the most comprehensive I've seen, I noticed you said at one 
point the census is planned at the national level but carried 
out at the local level, and you point out that that's very true 
on Indian reservations and trust lands.
    And then I was particularly interested in your first 
recommendation, which is the government-to-government 
relationship. And you say, specifically, we urge the Census 
Bureau to sign its American Indian and Alaska Native Policy, 
which recognizes and commits to government-to-government 
relationships with federally recognized tribes and that that 
will be reflected in all its policy, plans, and programs.
    If you recall, Chairman Makil made some point about the 
importance of involving tribes and tribal government and tribal 
leadership in the planning of the census.
    I guess I would like to have you explain to me, if you 
could briefly, the Census Bureau's American Indian and Native 
American policy. Explain to me, if it's not been signed, why it 
hasn't been signed. Let me know if you have a perspective of 
the degree with which the Census Bureau is cooperating with 
tribes in planning the census on Indian reservations and in any 
Indian trust lands across the country.
    Mr. Jackson. As far as the Bureau's policy, my 
understanding is it's been sitting at the Census Bureau for the 
last 3 years. I don't have an answer as to why it hasn't been 
signed.
    As far as to answer your second question, we do sit on the 
Secretary's 2000 Advisory Committee, and we have had an 
opportunity for the last 5, 6 years to provide recommendations 
as we hear them from our member tribes. And I would like to 
commend the Census Bureau for listening to those 
recommendations and working with us.
    They continue to provide representatives to our national 
conferences. We do hear from the Secretary as well as the 
Director of the Census Bureau. So on a national level, we do 
work with the Census Bureau and continue to do that. And we 
hope that in our upcoming conference that we will also continue 
to have that input from the Census Bureau.
    Mr. Shadegg. You mentioned in your testimony that your 
specific recommendations are--I mean your oral presentation 
here, your specific recommendations are set forth in your 
written testimony, and it numbers at least seven that I can 
read. I presume all of those have been provided to the Census 
Bureau and that they are working with you on all of them.
    Mr. Jackson. Yes.
    Mr. Shadegg. The discussion, of course, always consists 
over this issue of sampling, and some people are going to carry 
that fact forever and ever. I think the chairman made a good 
point, and that is the Supreme Court has written its decision. 
It is the very highest court in the land. The Supreme Court has 
said that sampling cannot be used for apportionment.
    They left the door open. I'm not knowledgeable about that. 
I believe the door is open on the question of districting and 
really open on the question of allocation of resources.
    Would I be accurate in saying that you have your greatest 
concerns with regard to the allocation of resources? If 
sampling can improve--I'm not necessarily saying that it can, 
but if it can improve--the count for purposes of allocation of 
resources is that something you would like to see occur?
    Mr. Jackson. We have not taken a formal position on that. 
We do take a position on particular issues relying on member 
tribes, but we do hear some of the tribes on an informal basis 
and that would be, probably, the main objective.
    Mr. Shadegg. I appreciate that. You can't live in the State 
all your life, as I have, and not see that there are crying 
needs for resources everywhere but particularly in all sorts of 
minority communities and particularly on the American Indian 
reservations.
    Mr. Chairman, I don't believe I have anything further at 
this time.
    Mr. Miller. OK. Let me ask. Is everyone scheduled at this 
time for full post census local review? Are you familiar with 
that? In 1990 they allowed communities and reservations to get 
the number before they became official to see if there were any 
mistakes made.
    That's something that was used in 1990 so that counties or 
cities or tribes had the chance to make sure that the Census 
Bureau did the right job, and they had a few weeks to review it 
before they became official numbers. That is not going to be 
allowed by the Census Bureau right now--the 2000 census. I 
don't quite understand why.
    Mr. Celley. Mr. Chairman, I am not familiar with that, but 
that is a question I would encourage you to present to Mr. 
Bourey.
    Mr. Miller. OK. Thank you.
    Mr. Shadegg. Mr. Chairman, your legislation would allow 
that, though.
    Mr. Miller. Yes.
    Mr. Shadegg. And would enable, for example, tribal leaders 
to look at the preliminary count before it goes to the Census 
Bureau to correct any apparent errors that they find. Is that 
correct?
    Mr. Miller. Right. It would allow the 2000 census to give 
the most trusted numbers; and if you find mistakes, you can go 
back and correct them.
    With that, let me thank you, very much, for the excellent 
testimony and excellent response to the question. You've been 
very helpful. Thank you, very much.
    I will ask the next three panelists to come forward and 
have a seat.
    We'll take a 5-minute break.
    [Recess taken from 2:15 p.m., to 2:30 p.m.]
    Mr. Miller. If the three members will rise and raise their 
right hands.
    [Witnesses sworn.]
    Mr. Miller. The record will state they all stated 
affirmatively.
    And let us begin with Mr. Bourey.
    Mr. Bourey, by the way, I used to work with him for a time 
in the Ninth Congressional District. So it's nice to see you.

  STATEMENT OF JAMES M. BOUREY, EXECUTIVE DIRECTOR, MARICOPA 
                   ASSOCIATION OF GOVERNMENTS

    Mr. Bourey. Thank you, Mr. Chairman.
    Mr. Chairman, committee members, thank you for providing me 
the opportunity to testify in this field hearing.
    Holding an accurate census 2000 is very important to me, 
both as executive director of the Maricopa Association of 
Governments and as a representative of the International City/
County Management Association on the Census 2000 Advisory 
Committee.
    Aside from its use in determining congressional 
representation, the census is used to distribute $180 billion 
in Federal funds annually. We estimate that in Maricopa County 
alone, each housing unit counted represents $10,000 in Federal 
and State funds to local governments in the decade after the 
census. With so much at stake, we work together to achieve an 
accurate census count.
    I have four recommendations to help us accomplish that 
objective: To account for new growth right up to the day of the 
census; to conduct a post census local review; to meet all 
census program deadlines; and to designate a highly visible 
census 2000 advocate.
    I will address each of these recommendations for you.
    States with rapidly growing metropolitan areas, such as 
Arizona, is presented a particular challenge for census 2000. 
Since the last census in 1990, Maricopa County has added 
683,000 residents, more people than currently reside in 
Washington, DC, alone.
    We are constructing housing units at the rate of more than 
100 a day. Our population has been increasing between 85,000 
and 100,000 people a year for the past 3 years. The Bureau of 
Census is currently assembling its master address file, which 
contains addresses for housing units throughout the United 
States.
    However, during that time period between the preparation of 
the address file and the start of the census 2000, another 
40,000 housing units may be constructed and more than 100,000 
residents added to our region.
    In fact, this is a 1991 aerial photo that identifies an 
area in the northwest region that was an unincorporated area. 
By 1998, an additional 3,000 housing units have been 
constructed in this 4-square-mile area. This is happening in 
many areas throughout our region.
    We recommend the Bureau of Census take the following steps 
to ensure that this growth is taken into account.
    No. 1, rely on building permits issued in 1999 to predict 
the new housing units that will be in place on April 1, 2000. 
The Census Bureau could then send questionnaires to these 
addresses. We have this information in the data base, so we can 
call up that data with the addresses and provide that to them.
    Work with U.S. Postal Service, where possible, to assist in 
identifying new housing units that are not included in the 
address file.
    Next, to use local government personnel to supplement 
Census Bureau efforts to make available and deliver extra 
census questionnaires to newly identified housing units.
    The current census 2000 operational plan does not include 
an opportunity to review preliminary post-census housing-unit 
counts as was done in the 1990 census. Instead, local 
governments are being given an opportunity to participate with 
the Bureau of Census in updating the address file and housing 
unit counts prior to the start of the census.
    While I commend the Bureau of Census for this proactive 
approach, many jurisdictions have not participated in the 
program. Those cities will be given their final housing unit-
count population figure without having ever provided input. 
Even if entire subdivisions have been missed, there will be no 
chance to correct the count other than to file an appeal.
    I strongly urge you to consider taking whatever steps are 
necessary to include a post-census local review as was done in 
1990 to supplement the precensus address followup update.
    The post-census review would involve providing estimated 
housing unit counts by block to local jurisdictions and giving 
them adequate time to review those counts and report any missed 
housing units to the Census Bureau. The Bureau would then 
undertake followup efforts to verify those addresses.
    For the past several years, deadlines for programs 
associated with the census 2000 have been missed. These include 
the deadlines for providing us with information for updating 
addresses, updating city and town boundaries, and recommending 
changes to census tracts and block groups. One thing is 
certain: The April 2000--April 1, 2000, deadline for conducting 
census 2000 is firm.
    Therefore, we must agree and recognize that schedules need 
to be met. To achieve this, I recommend that the Bureau of the 
Census do several things.
    Enter into a variety of creative partnerships with other 
government agencies and the private sector to obtain 
information needed for census 2000. This includes updated 
address files and maps, changes to census geography, and 
updated city and town boundaries.
    Also establish a method to confirm receipt of information 
from local government agencies and to notify them, also, about 
whether that information is being utilized.
    Next, to deploy more resources and streamline the process 
for resolving discrepancies between local government address 
files and Census Bureau files. The current reconciliation and 
appeals process is cumbersome and requires extensive 
communication between local communities and the Census Bureau 
in a relatively short period of time.
    Next, to reexamine work schedules of the Census Bureau 
employees to ensure that important issue areas are adequately 
covered at critical times. We've experienced situations where 
the only individual qualified to respond to a specific question 
on a time-sensitive matter is not available.
    And finally, to increase the number of hours that staff is 
available in the regional offices and in Washington. Currently, 
the time differences and flex time practices provide a very 
narrow window for communicating with key individuals.
    Especially with the 3-hour time difference, they are there 
on the job from 7 to 3. We have got, basically, a couple hours 
in the morning before they go to lunch.
    The complexity of preparation for census 2000 and a wide 
range of technical and political issues have resulted in 
dissension among groups that ultimately must work in harmony to 
achieve a successful census 2000 count.
    Therefore, I recommend that you consider a highly visible 
census 2000 advocate to be designated, who can champion the 
census 2000 on a regional or national level. The advocate would 
work to unify a wide variety of interests and secure bipartisan 
support on the importance of the census.
    Mr. Chairman, committee members, given the significance of 
the census 2000 and the recent Supreme Court decision on 
sampling, I urge that these recommendations be addressed as 
soon as we can. I would be happy to assist in those efforts in 
any way I can.
    Thank you for the opportunity to address the committee.
    [The prepared statement of Mr. Bourey follows:]
    [GRAPHIC] [TIFF OMITTED]65952.081
    
    [GRAPHIC] [TIFF OMITTED]65952.082
    
    [GRAPHIC] [TIFF OMITTED]65952.083
    
    [GRAPHIC] [TIFF OMITTED]65952.084
    
    Mr. Miller. Thank you.
    Ms. Gaddy.

STATEMENT OF LEVONNE GADDY, FOUNDING PRESIDENT OF MULTIETHNICS 
          OF SOUTHERN ARIZONA IN CELEBRATION [MOSAIC]

    Ms. Gaddy. Thank you all for inviting me here today for 
this testimony.
    My name is Levonne Gaddy. I'm representing the MOSAIC 
Multiethnics of Southern Arizona.
    Comedian and actor Steve Martin in the opening scene of the 
movie entitled ``The Jerk,'' stood amongst a large family of 
African American individuals and stated forlornly, I was born a 
poor, black child.
    The contrast between the dark faces and Mr. Martin's 
whiteness, his obvious lack of rhythm, and the sheer 
ludicrousness of the scene invoked laughter and chuckles from 
audiences.
    Well, the truth is that in a small, segregated, rural North 
Carolina town, I was born a poor, black child. Many times 
during my childhood and early adult years, people chuckled as I 
insisted that I was black. That hurt.
    As a youth, I was taught that race is a biological fact. 
Can you imagine the insanity of believing I was biologically 
black and seeing in the mirror that I was white?
    America's rigid, racial, categorizing system has harmed 
countless youth. I and millions of others have been forced by 
our government to lie about our racial makeup. Multiracial 
people have a history of being denied, shamed, quieted. We have 
been America's secret. I lived one-third of my life in a 
country where it was against the law for me to exist.
    The marriage in the late 1800's of my grandparents, two 
people of different races--different race was an illegal union. 
How bad was the act of marrying someone of a race different 
than one's own? The abolition of anti-interracial marriage laws 
in 1968 laid the foundation for multiracial individuals to 
legally exist.
    Thirty years after the Supreme Court ruling, for the first 
time in the history of this great Nation, we multiracial people 
can finally be acknowledged by our government and have the 
opportunity to be truthful by checking all the racial heritages 
that we identify with on a government form on the census 2000.
    The Office of Management and Budget, Directive No. 15, 
revision of 1997, mandates that multiracial people have the 
option to check one or more boxes when we racially self-
identify. We were no longer forced to lie, and the citizens of 
American can no longer lie to itself about our existence.
    Over the last 20 years, 70 to 80 grass-roots, multiracial, 
support organizations have sprung up across America.
    In her research, Cornell University Ph.D. Kim Williams has 
concluded that the multiracial movement in America may be the 
fastest growing social movement in America's history and may 
have accomplished more in a short time than any other.
    It is my firm desire that Directive No. 15 mandate be 
funded and that Americans will be educated about this change in 
racial identity policy, that multiracial Americans clearly 
understand how they can and why they should, after centuries of 
oppression, express their racial truths.
    I ask you to continue to move us forward from America's 
racial insanity toward truth and sanity by involving 
multiracials in every way possible in the census 2000 response 
campaign.
    Specifically, target the multiple checkoff respondents with 
a sustained, national media message detailing the new policy; 
involve leaders of the community in training and sensitizing 
enumerators to the historical change; engage multiracial 
leadership in local public relation campaigns, speaking 
engagements with schools, and others impacted by the change.
    We, in the multiracial community, are a network of all 
races of people who are committed and willing to assist with 
census 2000.
    I appreciate this opportunity to share my ideas with you. 
And I, along with the multiracial communities' leadership, 
thank you for your willingness and commitment to partnering 
with us in this period of historical change.
    I and the proud, uncounted multiracial people of our 
country wish our fellow citizens could be as proud of us as we 
are of ourselves. Thank you.
    [The prepared statement of Ms. Gaddy follows:]
    [GRAPHIC] [TIFF OMITTED]65952.085
    
    [GRAPHIC] [TIFF OMITTED]65952.086
    
    Mr. Miller. Thank you.
    Ms. Lumm.

   STATEMENT OF ESTHER DURAN LUMM, PRESIDENT OF THE ARIZONA 
                    HISPANIC COMMUNITY FORUM

    Ms. Lumm. Honorable Carolyn Maloney, Honorable Dan Miller, 
Honorable John Shadegg, thank you for the opportunity to 
address you in this very important matter: census 2000.
    My name is Esther Duran Lumm, president of the Arizona 
Hispanic Community Forum, an advocacy organization comprised of 
seven chapters throughout the State of Arizona. I believe my 
remarks today reflect the feelings of many people in the 
Hispanic community as well as other people of color.
    We are deeply, deeply concerned about the undercount's 
impact past census counts have had on children, people of 
color, American Indians living on and off reservations, and the 
economically disadvantaged people living in urban and rural 
areas. Many Latinos and African Americans live in areas of the 
city where accessibility is extremely difficult if not 
impossible.
    Any community person involved in walking door to door to 
distribute information--and I speak from experience--can tell 
you that you're fortunate to make contact with 4 out of 10 
houses, and that's not counting unapproachable homes where 
Dobermans guard the gates. The same situation exists for 
American Indians living on reservations or widely separated 
rural areas.
    The end result in the past census efforts has been 
economically devastating for people of color and other people 
who are economically disadvantaged.
    According to Census Bureau evaluations, the 1990 census 
excluded at least 2 percent of Phoenix' residents and 2.4 
percent of the State's residents, both higher than the net 
national undercount of 1.6 percent. These results are 
devastating and result in our county and city residents being 
denied fiscal resources and political representation.
    The undercount rate for Hispanics is a shocking 5 percent 
and even more shocking for American Indians living on 
reservations at 12.2 percent. This trend will continue unless 
we take steps to make changes, and we believe the time for that 
change is with census 2000.
    With all due respect, your Honorable Dan Miller's views on 
the fact that the decision of the Supreme Court is final, thank 
God we live in America and we have freedom of speech.
    We fully support scientific sampling as a method to use in 
resolving the problem of undercounting and are disappointed and 
displeased at the decision to disallow scientific sampling for 
purposes of apportionment. We agree and believe that scientific 
sampling will result in more accurate counts on all levels: 
national, State, congressional, and in the census tracts.
    Opponents contend that to use scientific sampling will 
result in a violation of the Constitution in that it 
specifically calls for a physical head count.
    While we have the greatest respect for the Constitution of 
the United States and believe it is the greatest document ever 
written for governing, we do not believe that the great minds 
that wrote it expected the Nation to remain unchanged.
    The days are gone when we could count people physically. 
The population has grown and the culture with it. We must 
employ whatever scientific and technological tools are 
available to us to ensure fairness to the people.
    Other methods to enhance the census procedure include: 
Recruit and hire a local work force that represents the 
multicultural diversity of our city and State; removing legal 
barriers that prevent low-income and elderly from applying for 
census jobs.
    Census materials available in multi-languages are crucial 
to the success of the census. This needs to be ensured by 
allocating funds for hiring staff at questionnaire assistance 
centers rather than relying on volunteers. For Spanish-speaking 
people, the forms should be in bilingual format and 
advertisement targeted on Spanish language media.
    Census promotional materials must be distributed to local 
community groups in a timely manner, early enough to make an 
impact, and Congress should expect to provide funds to assist 
organizations with limited funds in their mission to outreach 
and educate the community, publicity, and through special 
target efforts via the schools.
    Regarding the census taking for American Indians, the 
preparation of tribal liaison materials should be completed in 
a manner that respects culture and promotes a voluntary census.
    In conclusion, we urge you to do the right thing. Do not 
get caught up in partisan panic.
    We have heard so much about family values this decade, yet 
children were missed more than twice as often as adults. At 
least 3 percent were not counted. And children of color, again, 
paid the price--the highest price.
    Seven percent of black children were not counted. Five 
percent of Hispanic children were not counted. And 6 percent of 
American Indian children were not counted. Did they not lose 
out on the Federal assistance?
    Taking care of children is a priority. Please, let's put 
some action behind the family value concept and do what is fair 
and just. Thank you.
    [The prepared statement of Ms. Lumm follows:]

    [GRAPHIC] [TIFF OMITTED]65952.087
    
    [GRAPHIC] [TIFF OMITTED]65952.088
    
    [GRAPHIC] [TIFF OMITTED]65952.089
    
    Mr. Miller. I would like to thank everyone for your 
comments.
    Mr. Shadegg, you have to leave now. Do you have a quick 
question you would like to ask? Then we'll let you go, and then 
we will proceed.
    Mr. Shadegg. I don't really believe I do. I think it was an 
excellent presentation by all three panelists. I know there are 
some specific questions of Mr. Bourey, and I thought his 
testimony was very technical, but the other testimony was very 
compelling, and I commend you all for testifying today, and 
I'll leave the questioning in your capable hands.
    Thank you very much. I apologize. I do have to leave.
    Mr. Miller. Thank you very much for joining us.
    Mrs. Maloney. You added an important dimension to our 
hearing.
    Mr. Miller. As I said before, the Supreme Court stated--we 
can argue sampling and argue sampling. The job is we've got to 
get the census done. We're prepared to offer as many resources 
as we can. In fact, the Congress appropriated about $200 
million more for the census in the current appropriation bill--
in last year's appropriation bill than the President even asked 
for.
    So we have spoken by giving the resources to the Census 
Bureau, more money than they even asked for. My ideas and 
suggestions are going to cost money, but we just need to work 
together to get the job done.
    Members listening to the debate, Thomas Jefferson was 
involved in the first census in 1790, and they had their 
problems. Back in 1790, they had to do it horseback. So instead 
of arguing sampling, I think we need to forget about it.
    Let me talk to Mr. Bourey about this most post-census local 
review issue. Where were you in 1990? Were you here, or you 
were in Florida?
    Mr. Bourey. I was in Florida in 1990.
    Mr. Miller. OK. Were you familiar with the post-census 
local review back then?
    Mr. Bourey. Somewhat. I wasn't directly involved. I've also 
researched some of what went on here.
    Mr. Miller. Well, tell me what happened here in Phoenix in 
1990 with the post-census local review.
    Mr. Bourey. Well, the jurisdiction--the city was given 
housing count information after the census was conducted. They 
were then given, I believe, 15 days, I believe, to be able to 
address their concerns and provide to the Census Bureau places 
where there were undercounts, and the Census Bureau, then, did 
a review of those.
    And from what we have been able to tell, they did not 
review all of those, just the top blocks that were missing--the 
largest number of housing units. They did come back, then, and 
do an adjustment for the housing count, and they adjusted about 
3,700 units in this region.
    Mr. Miller. How many?
    Mr. Bourey. About 3,700.
    So there was a significant adjustment if you look at the 
population. If you consider a housing unit for State and 
Federal was about $10,000 per housing unit for the decade, that 
represents quite a bit.
    Mr. Miller. I'm a little baffled about why the Census 
Bureau doesn't want to do that. Money can't be the problem. We 
have provided resources.
    We spoke to the conference of mayors. The mayors were 
pretty upset about it. The mayor of Detroit, I spoke with him 
afterwards. He was very critical of the 1990 census in Detroit 
and how very much it was needed this time around and the 
support, and maybe we can get the support from the mayor here 
to send a letter to the President to encourage him and push for 
legislation for that.
    It gets back to trust. That's part of the issue. You know, 
one of the things that we are saying in the front end is to 
look at the address list, but we want to look at the tail end 
numbers to do the audit.
    Your statements have visited the problems of working 
together with the community on the address list. Is that right?
    Mr. Bourey. Mr. Chairman, committee members, we have 
received information, not in as timely a fashion as we would 
like. The information came in bits of half and half and then 
file.
    We have been surprised--and this is not to lay the blame on 
the Census Bureau. We have been surprised at the extent to 
which the addresses are not provided--were missing from the 
file that we have--from the address file to what we know is out 
there.
    In some cases, in some jurisdictions, it was upwards of 
more than 50 percent, the addresses that were missing in some 
areas. So it was a very, very significant amount of addresses, 
so we had a large concern. We have yet to receive feedback 
about how they've been incorporated in the file--the address 
file, so there's concern over that, and then they were 
obviously concerned about overtime.
    Mr. Miller. You have a field update address file. But you 
say as much as 50 percent error in some municipalities here?
    Mr. Bourey. Mr. Chairman, yes, more than 50 percent in some 
jurisdictions. The addresses, for some reason, are not on the 
post office records.
    Mr. Miller. Ms. Gaddy, your organization is MOSAIC. What's 
that stand for? Is that an acronym?
    Ms. Gaddy. Yes. Multiethnics of Southern Arizona in 
Celebration.
    Mr. Miller. How long has that group been around?
    Ms. Gaddy. We've been around for about 15 months at this 
point, and we have about 30 families and individuals--
individuals plus family memberships.
    Mr. Miller. Is there a national organization?
    Ms. Gaddy. Yes, there is. It's the Association of 
Multiethnic Americans, and they are headquartered in 
California.
    Mr. Miller. And you're part of that nationally. Is that 
right?
    Ms. Gaddy. Yes. We're affiliated with the national 
organization.
    Mr. Miller. Now, as part of the Census Bureau goes this in 
year, you're reasonably satisfied as far as the forum.
    Ms. Gaddy. I have not been as involved in the details of 
what's happening with the census. Ramona Douglass is a member 
of the Federal 2000 Census Advisory Committee, and I trust that 
she is doing her part to make sure that we are getting--she's 
having the input that she wants to have and needs to have for 
all of us. So I guess the answer is yes.
    Mr. Miller. All right. Mrs. Maloney.
    Mrs. Maloney. I join you, Mr. Chairman, in thanking all of 
the witnesses for their very moving and excellent testimony. I 
particularly thought it was important to hear from the Latino 
community, which is very, very large here in Arizona, and I 
would like to ask you, Ms. Lumm, several questions.
    I appreciated your comments and your testimony about how 
overcounts do not balance out undercounts. They are different. 
They're apples and oranges. Can you tell us what effect a large 
undercount has had on the Hispanic communities of Arizona?
    Ms. Lumm. Mainly, it has been economic. They have not been 
able to benefit from Federal funds for different types of 
benefits that normally are given to them through the schools, 
Head Start Programs, these kinds of things.
    Because I was told that I would be limited to 5 minutes and 
did not realize it was going to be in this change, I did not 
bring any specific notes that tell me exactly where those areas 
were. However, it's been mainly economic for the Latinos.
    Mrs. Maloney. You think you lost maybe State representation 
in the State?
    Ms. Lumm. That goes without saying. We were definitely not 
represented, and that's why we're so disappointed to see that 
the sampling was not being used for the apportionment because 
we have had to fight through decades for representation.
    And even now, you see the representation in south Phoenix 
and in areas where there are heavy populated Latinos, this is 
the only place where we're able to elect officials that are 
Hispanic because--it is ludicrous.
    For example, I live in a neighborhood right now that's 
predominately Republican. It would be a waste of my time and 
money for me to try to run in that area. There is no way that I 
could win.
    For one, I didn't even mention, because it's just so 
obvious, the fact that we are not equally represented. However, 
the economic portion has been very devastating also.
    Mrs. Maloney. Given what you know about the issue and the 
effectiveness of all the coverage and improvement programs that 
we talked about and we all support hiring more enumerators, we 
all support hiring within the specific culture, in the Indian 
culture, the Latino culture, the multiethnical culture in the 
areas and the language, do you believe that the undercount can 
be eliminated without the use of scientific methods sampling?
    Ms. Lumm. Absolutely not. Because, as I stated when I told 
you that I was speaking from experience, I've been door to door 
in the barrios. It is impossible to get to some of the houses.
    In fact, today I spoke with a woman, a friend of mine, that 
actually took work with a census and went door do door. I asked 
her, I said, what do you do when you come to a house that you 
can't go into because there's a dog or because they won't 
answer the door?
    And she said, well, I just skip it.
    And basically, this is what's happening. It is impossible 
to get the count. Also between the culture, the mistrust. There 
is no way.
    That's why the sampling is so very important. That's why 
it's so crucial because that is the only way we're going to get 
represented. That's the only way that we're going to get fair 
representation, is through sampling. This is why we supported 
it so heavily.
    You can add as many people, you can advertise as much as 
you want, but in the end, it's going to have to be sampling 
that gives us the proper representation.
    Mrs. Maloney. I quoted earlier from Dr. Barbara Bryant, who 
happens to be a Republican and head of the Census Bureau, and 
she said when she was the director, they had enough money to 
hire all the enumerators they wanted.
    Some of them went six times to homes and still could not 
count them, that it was then that they appealed to the National 
Academy of Sciences--or it was Congress that appealed to them 
to come forward with a plan that supported modern scientific 
methods.
    And I just want to, for the record, make one correction to 
my dear friend and colleague Dan Miller. We disagree on a few 
things, but it's never personal. We have a good personal 
relationship.
    But sampling is different from estimation. We don't want 
guessing. Sampling is a scientific method that is supported by 
every scientific organization and statistical organization. 
It's not estimation. It's a scientific method. I just want to 
add that clarification.
    I want to ask Mr. Bourey--I know my time's up. Could I ask 
him one brief question?
    You know, I appreciate the concerns, and you showed us how 
the new construction is jumping all over Arizona and probably 
growing much higher than other people. But when--you explained 
that some of the governments are not participating in the 
review program, which is the prefinal where the local 
governments work with the census on the address list.
    So my question is and we know that the last time we had 
local review it only added--124,000 people were added as a 
result of this procedure, and 46 percent were in the cities of 
Detroit and Cleveland, so that's about 80,000 housing units, 
and that's less than one-tenth of 1 percent.
    So the Census Bureau said let's not wait until the end. 
Let's, before the end, try to involve a partnership. And so 
they came up with the local review, and they involved a 
partnership and doing address lists and working together.
    But my question is, if governments would not participate in 
the preperiod, what makes you think that they would participate 
in the post census period?
    You testified they were not participating in the 
prepartnership period. And I was wondering if they wouldn't 
participate in the prepartnership period, why would they 
participate in the postpartnership period?
    Mr. Bourey. Chairman Miller, Honorable Maloney, we have 
relatively good participation in this region through the local 
process. We think it's a very good process, and we're going to 
support the process. And we're recommending it be extended so 
there's continual update to the address file. That is the best 
way to get a complete file.
    I think some communities around the country really have not 
felt they had the resources to be able to participate; or maybe 
they didn't know how the program works. They didn't know, 
necessarily, that it would result in a better address list file 
that would be more productive than not.
    So I'm not sure why they don't participate, but we have 
very, very good participation here. But there is so much that 
will happen between that time and the time of the actual 
census.
    In addition to that, we have no feedback today about how 
our information we've sent to the Census Bureau will or will 
not be incorporated. In fact, we have seen, many times we have 
sent information to the Census Bureau, and it has not been 
incorporated.
    There's a very recent example of that--I don't think I need 
to go through the specifics of that.
    We don't know what's going to be included and what's not 
going to be included in an address file. So that's why it's 
incredibly important for us to be able to have the opportunity 
to provide that information after.
    I think the history behind it is that there has been post 
census local reviews, so because of that and because of the 
finality of it, there will be a number of communities 
participating.
    I don't really believe the adjustment was as full as it 
might have been in the last census, because as I learn more 
about what the Census Bureau actually did to make the 
adjustments, I could see why the adjustment wasn't accurate.
    They didn't use all the information they were sent. They 
overlooked, as I understand, 5 percent of the information that 
was sent. We're still learning more about exactly how it was 
conducted so we can offer suggestions on that.
    Mrs. Maloney. I will join, and I'm sure the chairman will 
join with me, in making sure that we get the information back 
to you however the information is incorporated. I'm sure we 
will be getting back to you, but we will followup on that and 
make sure you get that information and the information on the 
other aspect.
    Mr. Miller. Thank you, very much. Mr. Bourey is on the 
Advisory Board in Washington, the chairman of the Advisory 
Board. Is that right?
    Mr. Bourey. Yes, Mr. Chairman. Our report is due February 
19th.
    Mr. Miller. The Advisory Board has recommended the local 
post census review. Is that right?
    Mr. Bourey. Yes, your Honor.
    Mr. Miller. Thank you, very much, for your statement. It 
was very helpful, and I appreciate that.
    And Ms. Gaddy, I want to thank you again for giving us your 
statement earlier; appreciate that very much.
    Let me thank you--all three of you all.
    I need to do a couple of things before we adjourn.
    In case there are any additional questions that Members may 
have or witnesses may have, I ask that the record remain open 
for 2 weeks for Members to submit questions to the record and 
witnesses to submit answers as soon as practical.
    Any additional written statements may be entered into the 
record within 2 weeks, only with prior approval, without 
objection.
    So I also ask unanimous consent that written and opening 
statements of all the witnesses be included in the record 
without objection.
    So on behalf of the committee, I would like to thank 
everyone very much for being with us today. We appreciate it. 
It has been very worthwhile, and the hearing is adjourned.
    [Whereupon, at 4:55 p.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
